<html>
<title> - SECURING U.S. INTERESTS ABROAD: THE FY 2014 FOREIGN AFFAIRS BUDGET</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                    SECURING U.S. INTERESTS ABROAD: 
                   THE FY 2014 FOREIGN AFFAIRS BUDGET 

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 17, 2013

                               __________

                           Serial No. 113-39

                               __________

        Printed for the use of the Committee on Foreign Affairs

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

80-463 PDF                      WASHINGTON : 2013 




                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable John F. Kerry, Secretary of State, U.S. Department 
  of State.......................................................     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable John F. Kerry: Prepared statement..................     9

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs: Material submitted for the record.....................    65
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa: Prepared statement........................    67
Written responses from the Honorable John F. Kerry to questions 
  submitted for the record by:
  The Honorable Edward R. Royce..................................    68
  The Honorable Edward R. Royce on behalf of the Honorable Gus 
    Bilirakis, a Representative in Congress from the State of 
    Florida......................................................    84
  The Honorable Edward R. Royce on behalf of the Honorable 
    Michael R. Turner, a Representative in Congress from the 
    State of Ohio................................................    86
  The Honorable Eliot L. Engel, a Representative in Congress from 
    the State of New York........................................    87
  The Honorable Michael T. McCaul, a Representative in Congress 
    from the State of Texas......................................    97
  The Honorable Brad Sherman, a Representative in Congress from 
    the State of California......................................   100
  The Honorable Ted Poe, a Representative in Congress from the 
    State of Texas...............................................   107
  The Honorable Albio Sires, a Representative in Congress from 
    the State of New Jersey......................................   109
  The Honorable Matt Salmon, a Representative in Congress from 
    the State of Arizona.........................................   111
  The Honorable William Keating, a Representative in Congress 
    from the Commonwealth of Massachusetts.......................   116
  The Honorable George Holding, a Representative in Congress from 
    the State of North Carolina..................................   119
  The Honorable David Cicilline, a Representative in Congress 
    from the State of Rhode Island...............................   123
  The Honorable Scott Perry, a Representative in Congress from 
    the Commonwealth of Pennsylvania.............................   135
  The Honorable Doug Collins, a Representative in Congress from 
    the State of Georgia.........................................   136
  The Honorable Mark Meadows, a Representative in Congress from 
    the State of North Carolina..................................   139
  The Honorable Luke Messer, a Representative in Congress from 
    the State of Indiana.........................................   141


   SECURING U.S. INTERESTS ABROAD: THE FY 2014 FOREIGN AFFAIRS BUDGET

                              ----------                              


                       WEDNESDAY, APRIL 17, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 9:35 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing of the Committee on Foreign 
Affairs will come to order.
    Today we are privileged to hear from the Secretary of 
State, John Kerry.
    Of course, Senator Kerry is from Massachusetts, and our 
committee mourns those lost in the terrorist attack at the 
Boston Marathon. Our hearts go out to the victims and to the 
family members who have lost loved ones.
    Secretary Kerry comes to testify on his department's budget 
request. Needless to say, given Washington's chronic budget 
deficit, wasteful spending is intolerable, but even good 
programs must be subject to prioritization. We can't do 
everything.
    Along those lines, it is inexcusable that the State 
Department has been operating for 4-plus years without a 
presidentially-nominated, Senate-confirmed Inspector General. 
This committee is committed to its responsibility for 
overseeing the spending and other operations in the State 
Department. And that is a bipartisan commitment I am pleased to 
join Mr. Engel in carrying out.
    The threats facing our Nation, unfortunately, are mounting. 
Iran, North Korea, and Syria are just the ones that we read 
about in the headlines. The terrorist threat is, unfortunately, 
constant, with al-Qaeda franchises continuing to grow.
    Mr. Secretary, our plate is full, and we look forward to 
working with you to advance our Nation's interests.
    Regarding Iran, we can't be moving fast enough to increase 
the economic pressure on the Iranian revolutionary regime 
there. The ranking member and I have introduced legislation to 
do just that. I hope the administration would come to see the 
need to send nothing but the strongest signal that Iran's drive 
to develop nuclear weapons will be stopped. Greater economic 
pressure must be part of that message. The current policy is 
simply not working.
    Likewise, with North Korea, we need to be imposing 
crippling financial sanctions on this increasingly belligerent 
regime. In 2005, the Treasury Department was allowed to counter 
North Korea's illicit activities. It countered those activities 
because it was discovered that North Korea was counterfeiting 
U.S. $100 bills, was drug-running, and was involved in weapons 
sales. And, frankly, that tactic dramatically curtailed North 
Korea's access to the foreign currency that that regime needed 
for its nuclear and missile programs. Those programs 
increasingly threaten us. We must get back to that policy.
    A robust human rights policy is especially critical in the 
case of North Korea. The Kim regime will never be at peace with 
its democratic neighbors or us so long as it is at war with its 
own people, including running a brutal labor camp system, 
described as a concentration camp by those few who have come 
out of that system. Promoting human rights here is in keeping 
in American values but also presents a critical tactical tool 
for dealing with the regime. And, sadly, it is clear that the 
U.S. international broadcasting, essential in promoting human 
rights, is in disarray. Secretary Clinton said as much when she 
last appeared before the committee.
    Another challenge facing us, Mr. Secretary, is seeing a 
successful transition in Afghanistan. The consequences of 
failure would be great. Our struggle against terrorism would be 
set back significantly. We appreciate the risks that the men 
and women of the State Department take. And I want to express 
my condolences to the family of Anne Smedinghoff, recently 
killed in Afghanistan along with three other Americans.
    This committee and several others have been examining the 
events of Benghazi. We understand that the State Department has 
implemented many of the reforms recommended by the 
Accountability Review Board in order to better protect the 
Department's employees. That is good, since the Board found 
``systemic failures in leadership and management deficiencies 
at senior levels'' under the Secretary's predecessor.
    But the committee remains concerned about the Review 
Board's process. We have outstanding requests for information 
from your department, Mr. Secretary, that must be answered. 
These include why the four State Department employees the Board 
singled out for poor performance are still on the payroll. 
Seven months after Benghazi, the terrorists are still alive and 
free.
    Mr. Secretary, there are great challenges for our Nation, 
too many challenges. The difficulty of prioritizing is 
compounded by our fiscal crunch. Through it all, though, I look 
forward to working together to ensure that America maintains 
its traditionally positive and essential role in the world.
    I now turn to our ranking member, Mr. Engel from New York, 
for his statement.
    Mr. Engel. Well, thank you very much, Mr. Chairman.
    And, Secretary Kerry, as the ranking member of the Foreign 
Affairs Committee and as a longtime supporter of yours, I would 
like to welcome you to the Foreign Affairs Committee today, the 
first time you are joining us in your new capacity.
    At the outset, I would like to express my condolences on 
two recent tragedies: First, the death in Afghanistan of Anne 
Smedinghoff, a young Foreign Service Officer, who was by all 
accounts a rising star; and, secondly, the bombings that hit 
the Boston Marathon in your home State of Massachusetts.
    Mr. Secretary, you are here at a time when the United 
States faces an increasing number of difficult and complex 
challenges around the world. Syria remains engulfed in a 
horrific civil war that has left more than 70,000 dead. Iran 
continues its pursuit of a nuclear weapons capability. And 
North Korea seems determined to generate a crisis that could 
have serious implications for our national security.
    The primary purpose of today's hearing is to assess how the 
President's Fiscal Year 2014 international affairs budget 
responds to the threats and opportunities we face as a Nation. 
We spend just over 1 percent of our national budget on 
diplomacy and development, which are key components of 
America's national security strategy. Diplomats and aid workers 
strengthen alliances and prevent wars while telling America's 
story, and they do it on the cheap.
    While I would have preferred to see higher funding levels 
for our diplomats, I will support the broad outline of the 2014 
international affairs budget request, which cuts overall 
spending by about 4 percent, based in large part through our 
reduced presence in Afghanistan and Iraq.
    However, the effects of sequestration, which I strongly 
opposed from the beginning, are leaving many State Department 
functions dangerously short of funds. The budget request 
includes critical funding to enhance security for our brave 
diplomats and development workers. We should act as soon as 
possible to implement the recommendations of the Accountability 
Review Board for Benghazi and fund the State Department's 
security proposal. I am also pleased that the budget request 
continues to provide robust funding for PEPFAR and the Global 
Fund, maintaining U.S. leadership in global health.
    In addition, the 2014 budget increases vital humanitarian 
assistance to help the Syrian people, but I believe we must do 
more to tip the balance in favor of the Syrian opposition. I 
recently introduced the bipartisan Free Syria Act, which 
provides a comprehensive strategy to end the conflict in Syria. 
This includes the arming of carefully vetted members of a 
Syrian opposition committed to a peaceful, democratic Syria.
    Mr. Secretary, I look forward to working with you to bring 
the Assad regime to an end and address the humanitarian crisis 
he created.
    I believe that Iran's pursuit of a nuclear weapons 
capability is perhaps the foremost threat facing the United 
States and the world today. Over the past 4 years, President 
Obama has unified the international community against this 
threat and signed into law the strongest-ever sanctions against 
the regime in Tehran.
    Iran has been forced to the negotiating table, but they 
refuse to negotiate seriously. Meanwhile, their centrifuges are 
spinning more efficiently than ever. I urge the administration 
to continue to increase the pressure on Iran and to keep all 
options on the table until Iran abandons its nuclear weapons 
program once and for all. Chairman Royce and I have introduced 
bipartisan legislation to increase the pressure on Iran, and I 
hope the administration will embrace our legislation.
    I also want to congratulate President Obama on his 
tremendously successful trip to Israel and for fully funding 
aid to Israel in the budget request. I had the pleasure of 
traveling with the President to Israel, where he worked to 
strengthen the eternal bond between Israel and the United 
States and was received enthusiastically by the Israeli people.
    Mr. Secretary, Israel has repeatedly emphasized that it 
seeks unconditional direct negotiations with the Palestinians, 
and I applaud the administration for urging the Palestinians to 
accept that offer. Regrettably, the Palestinians keep raising 
one condition after another, casting doubt on their commitment 
to ending the conflict with Israel.
    I also want to work closely with you, Mr. Secretary, to 
build upon the terrific work of Secretary Clinton in supporting 
the Republic of Kosova. Likewise, I would like to praise the 
excellent efforts of EU Foreign Policy Chief Lady Catherine 
Ashton for leading the talks between Belgrade and Pristina. It 
is my understanding that Lady Ashton has again convened the 
parties, who are meeting as we speak.
    In previous talks, Kosova negotiated in good faith with 
Serbia in the EU-facilitated dialogue, but Serbia walked away 
from the table. It is critical for Serbia and Kosova that an 
agreement on normalization be reached. In the end, the people 
of Kosova simply want to be treated fairly. Just like their 
Balkan neighbors, their future requires a clear path into NATO 
and the EU, and the five EU holdouts should finally recognize 
Europe's newest country.
    I thank you, Mr. Chairman. And I look forward to Secretary 
Kerry's testimony.
    Chairman Royce. Thank you, Mr. Engel.
    Well, this morning we are joined by John Kerry, the 68th 
Secretary of State. Prior to his appointment, the Secretary 
served as United States Senator from Massachusetts for 28 years 
and chaired the Foreign Relations Committee in the Senate for 4 
of those years. And now he has to answer the questions.
    But, Mr. Secretary, welcome. Welcome to the House.
    And, without objection, the Secretary's full prepared 
statement will be made part of the record. Members here will 
have 5 days to submit statements, questions and extraneous 
materials for the record. And we will ask that Mr. Secretary, 
if you could summarize your remarks in 5 minutes, we will then 
follow with questions. Thank you.

 STATEMENT OF THE HONORABLE JOHN F. KERRY, SECRETARY OF STATE, 
                    U.S. DEPARTMENT OF STATE

    Secretary Kerry. Well, thank you very much, Mr. Chairman. I 
ask you just remember, what goes around comes around.
    Thank you, Mr. Chairman and Congressman Engel, Ranking 
Member, thank you for your comments about Boston. It is 
impossible for me to express my sadness and my anger, frankly, 
over those terrible events. It is just hard to believe that a 
Patriots' Day holiday, which is normally such a time of 
festivity, is turned into bloody mayhem.
    But I know how resilient Bostonians are, and I think a lot 
of you do, despite the fact that it took us 86 years to win a 
pennant. I have talked this week with friends and family up 
there, as recently as this morning. And the granddaughter of a 
very, very close supporter and friend of mine through all of my 
political career is fighting to keep both of her legs.
    You know, Boston is not going to be intimidated by this, 
but we are going to find out who did this. And the police work 
being done is extraordinary. The FBI is remarkable. There is 
great deal of forensic evidence, and we are hopeful that we can 
bring people to justice.
    Turning to the business before us this morning, I do 
promise to remember how important the lessons are I learned 
during my time in Congress, which means: Keep your remarks 
short so we can get to the questions. And I will try to do that 
as fast as I can, but there are some things I want to share 
with you.
    One of lessons that I have learned and particularly been 
reinforced in my early travels--and let me just say what a 
privilege it is to appear before this committee. I honor the 
Congress, having spent 28 years in it. I respect what each of 
you represent. And I come before you to be accountable on 
behalf of the administration. I look forward to our question-
and-answer period.
    As Senator Lindsay Graham said very eloquently, America's 
investment in foreign policy is national security insurance. 
And there really isn't anything foreign about foreign policy 
anymore. That has come home to me again and again. If we can 
make the small, smart investments up front, then I believe we 
avoid more costly conflicts and greater burdens down the road.
    In the past few months, we have seen a number of 
developments that underscore the stakes for having a strong 
American presence in every part of the world. American 
engagement was essential to the rapprochement between two of 
our closest partners, Israel and Turkey. And that was a 
positive step toward stability in a volatile region of the 
world where we need partnerships.
    The committee is more than immersed in Syria. We have 
contributed nearly $385 million to humanitarian relief to 
provide essential resources to the Syrian people, including 
sending flour to bakeries in Aleppo and providing food and 
sanitation in Atmeh, in the refugee camp. And I expect that we 
will talk about Syria somewhat today.
    Having just returned from Seoul, Beijing, and Tokyo, where 
the North Korea issue took center stage, we are reminded once 
again that America is the guardian of global security. We 
should be proud of that, and we should carry that mantel. We 
will not turn our back on the prospect of peace, but neither 
are we going to hesitate to do what we need to do to defend our 
allies and our interests.
    And all of this speaks to why this budget is not just a 
collection of numbers; it is an illustration of our values and 
our priorities. Budgets, deficits, debt--these are weighty 
decisions. I had the privilege of serving on the super 
committee and thought we could have gotten there. And I have a 
record of wanting to do deficit reduction.
    And I know you are all grappling with these choices. We are 
grappling with them at the State Department. And I think our 
proposed budget is responsive to and reflective of our national 
economic reality. As part of the budget, we are going to help 
cut our deficit responsibly while investing in areas that 
attract economic growth, create good jobs for Americans, and 
secure our national interests.
    Our 2014 budget request represents a 6-percent reduction 
from 2012 funding levels. And we have examined our request--and 
the reason we mention 2012 is 2013 was a CR, as all of you 
know. We have examined our request with a clear determination 
to improve efficiency and economize where possible. We have 
implemented reforms that reduce costs without jeopardizing 
vital contributions. And I think we deliver the maximum bang 
for the minimal expenditure of our citizens' dollars--about one 
single penny for our national security and global interests out 
of every single dollar.
    Now, let me give you a couple of examples of the kind of 
high-impact, low-cost work that we are doing to try to make the 
world safer.
    With just over $3.5 million, the State Department's Bureau 
of Conflict and Stabilization Operations made key investments 
leading up to the recent elections in Kenya, and I know that 
that helped to prevent a repeat of the violence that we saw 5 
years ago. It also provided the accountability that allowed 
Odinga to concede without instilling violence.
    Our antiterrorism assistance funding has helped the lives 
of hundreds of people in places like Pakistan, India, Lebanon, 
by training local law enforcement to detect and neutralize 
explosive devices and help us interdict plots before they come 
to our shores.
    Our 2014 budget request maintains our commitments to 
advancing peace, security, and stability in places where all 
three can be very scarce commodities.
    I have already traveled three times as Secretary to the 
Middle East and North Africa, a region struggling to respond to 
its citizens' growing expectations for dignity and opportunity. 
The very values that we have been promoting they are trying to 
embrace. Leaders there are making difficult decisions, and the 
United States cannot make those decisions for them, but we can 
do a lot to be a partner for all those on the side of freedom 
and democracy.
    To that end, the budget includes a request for $580 million 
for the Middle East and North Africa Incentive Fund so that we 
can help give reformers the tools and resources they need to 
make the right decisions on behalf of their citizens. And this 
fund also allows us to say to people in the region, if you are 
willing to take on the deep-rooted challenges of democracy and 
throw off the yoke of dictatorship, we are here for you.
    When we look at the threats that emanate from failed and 
potentially failing states, I think it is important that we 
learn the lessons of the past. The U.S. homeland will not be 
secure if violent extremists are bent on attacking us and they 
can find a safe haven in places like the Sahel or the Maghreb.
    The threats that we are dealing with in that part of the 
world range from al-Qaeda rebels to narcotraffickers. And this 
budget sets aside $8.6 billion for our security for 
counterterrorism law enforcement assistance. I ask you, every 
member, just compare that $8.6 billion to the more than $1 
trillion we have spent fighting in Iraq and Afghanistan, and I 
think you will agree that it is both pennywise and pound-wise.
    The simple fact is the United States cannot be strong at 
home if we are not strong in the world, in today's world. This 
is particularly true when it comes to our domestic economic 
renewal. We need to, I think, be more visible, engaged, and 
strong in certain places, particularly to stoke our economic 
engines with the trade and business opportunities that are 
available all across this planet.
    And that is why the President is committed to successfully 
completing the Transatlantic Trade and Investment Partnership 
and the Trans-Pacific Partnership. We want to tap the growing 
markets of the Asia-Pacific, which are vital to economic 
recovery. And I might point out, most of the growth in the 
world that is in the double digits or high single digits is in 
those parts of the world.
    I know you will agree with me on the value of investing in 
our relationship with Asia because many of you, including the 
chairman, the ranking member, Representative Salmon, and 
Representative Marino, have traveled to that region recently. 
In fact, you were there on the very day that I assumed these 
responsibilities.
    When it comes to shoring up our economic health and 
protecting our national security, I believe our development 
work is one of our strongest assets. And so let me be clear: 
Development is not charity; it is an investment. And I believe 
it is an investment and President Obama believes it is an 
investment in a strong world and a strong America.
    Eleven of our top 15 trading partners were once 
beneficiaries of U.S. foreign assistance. You just can't afford 
to pull back from what that lesson tells us. South Korea, that 
I was just in, 15 years ago was an aid recipient. Today it is 
giving aid around the world.
    That doesn't mean we can't work in better, more efficient 
ways, but let me highlight just a few of the reforms that we 
have undertaken.
    U.S. food aid, for instance. By giving ourselves the 
flexibility to choose the most appropriate and efficient type 
of food assistance, we are going to reach an estimated 2 
million to 4 million more people every year with the very same 
discretionary funding. At the same time, we are going to save 
approximately $500 million in mandatory funding over the next 
decade, which we can use to reduce the deficit.
    American growers and producers will still play a major role 
in this food assistance. Over half of the funding we are 
requesting for emergency food aid must be used for the purchase 
and shipping of U.S. commodities overseas. But by giving us the 
ability to modernize, including the flexibility to also procure 
food aid in developing countries closer to the crisis areas, 
not only do we feed more people, but we get food to 
malnourished people 11 to 14 weeks faster.
    So here is the bottom line: This change allows us to do 
more, to help more people lift themselves out the hunger at a 
rapid pace without spending more money. I think that is a great 
deal for the American taxpayer.
    The final area I want to mention is how this budget cares 
for our most valuable resource, and that is the personnel, the 
men and women of the State Department and USAID who are on the 
front lines.
    We have requested $4.4 billion to fortify our worldwide 
security protection and improve our overseas infrastructure. 
Two-point-two billion dollars of this is set aside for 
constructing secure diplomatic facilities. And this is part of 
our commitment to implement in full the recommendations of the 
ARB so that we can obviously mitigate the risk of future 
tragedies.
    This has been a hard year for the State Department family, 
a family that knows exactly how risky the work that we signed 
up for can be in a dangerous world. Chairman, you both 
mentioned, Mr. Ranking Member, the situation of the loss of 
Anne Smedinghoff. She is being laid to rest right now, while I 
am here. And I visited with her family in Chicago on the way 
back from Seoul, and we will have a memorial service for her at 
the State Department on the 2nd or 3rd of May.
    I met her on my last visit. Earlier in the week, you know, 
I sat with her parents, and we swapped stories about her 
enthusiasm, her energy, her vitality. She really wanted to make 
a difference in the lives of people she had never met, and she 
was.
    So Anne and Ambassador Stevens are really cut from the same 
cloth, and that is, frankly, what made them such outstanding 
Americans as well as members of the State Department family. As 
Secretary, my job is to make sure we protect these people. 
Frankly, it is all of our job. I think you know that. We cannot 
do it by retreating from the world.
    We stand for optimism. We stand for opportunity. We stand 
for equality. And we stand in opposition to all those who would 
replace hope with hate, who replace peace with violence and 
war. That is what we believe, that is when America is at its 
best, and those are the values of the State Department and the 
USAID that I intend to defend every single day.
    Thank you, Mr. Chairman. I know I went a little over.
    Chairman Royce. Thank you, Mr. Secretary.
    [The prepared statement of Secretary Kerry follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Let me raise a couple of issues.
    This committee has been frustrated in obtaining documents 
and other information from the Department concerning the 
Benghazi terrorist attacks. Of course, our investigation 
predates your tenure, so I am hopeful we will be able to 
resolve this as you get your team in place so that we can move 
forward on this important issue.
    I would also like to call your attention to the State 
Department's Inspector General's Office. This is the key 
independent office looking at waste and fraud. Mr. Secretary, 
as of today, there has been no permanent State Department 
Inspector General for over 5 years. This includes President 
Obama's entire first term. The committee raised this issue in a 
bipartisan letter sent to you in February, and we would like to 
see an immediate appointment to this position.
    On North Korea, you know my views on this, but the United 
States, past administrations, have tried to offer North Korea 
aid--we have offered over $1 billion--or sanctions relief for 
nuclear commitments. Administrations from both parties have 
been embarrassed when the regime tore up those agreements. 
Former Secretary of Defense Gates was fond of saying, ``I am 
tired of buying the same horse twice.'' My concern is that the 
administration may be thinking of doing just that.
    And I would just ask, how is this different, this approach 
to North Korea, from the past attempts to offer aid in exchange 
for a change in policy which never came?
    Secretary Kerry. Great questions all, and all deserve a 
straight answer, and I will give it to you.
    On the IG, you are absolutely correct. We are trying to 
fill a number of positions right now, the IG among them. The 
greatest difficulty I am finding, now that I am on the other 
side of the fence, is, frankly, the vetting process. And I have 
some folks that I selected way back in February when I first 
came in, and we are now in April and I am still waiting for the 
vetting to move. I have talked to the White House. They are 
totally on board. They are trying to get it moved.
    So I hope that within a very short span of time you are 
going to see these slots filled. They need to be, and that is 
just the bottom line. It is important, and I commit to you we 
will.
    Chairman Royce. I think this is the longest gap that we 
have had in the history of this position. So if you could talk 
to the President about this in short order, we would very much 
appreciate it.
    Secretary Kerry. I don't need to talk to the President. We 
are going to get this done.
    Chairman Royce. Okay.
    Secretary Kerry. We know it. And we are trying to get the 
right people. Matching person to task and also clearing all the 
other hurdles is, I am finding, not as easy as one always 
thinks. But we will get it done.
    On the subject of Benghazi, look, I was on the other side 
of the podium, the dais, just a short time ago when that was a 
big issue. And we held hearings in the Foreign Relations 
Committee in the Senate, and we wanted materials, and we got a 
lot.
    In fairness, I think the administration has testified 8 
times, has briefed 20 times. Secretary Clinton spent 5 hours 
answering questions before the Senate Foreign Relations 
Committee. Twenty-five thousand documents have already been 
turned over. Video of the actual event has been made available 
to members to see. If you haven't seen it, I urge you to see it 
because it is enormously helpful in understanding the flow of 
events and what happened. And the people who were involved have 
all been interviewed, and not only interviewed but those FBI 
interviews were made part of the record and, in an 
unprecedented way, have been made available to the Congress in 
order to read, verbatim, those testimonies.
    So if you have additional questions or you think there is 
some document that somehow you need, I will work with you to 
try to get it and see if we can provide that to you. But----
    Chairman Royce. I have to just disagree for a minute. 
Instead of handing over copies of the documents and records 
that we have requested, as has always been customary practice 
in the past, the Department has insisted that the committee 
staff sift through thousands of pages of materials in a room in 
which they are monitored by the Department. And they can't 
remove any or make electronic copies of those documents.
    Mr. Secretary, these are unclassified documents that relate 
to the critical issue of Embassy security. And the Department 
is literally spending thousands of taxpayers' dollars a week to 
slow the progress of the committee's review.
    So this has resulted in a great deal of wasted time and 
money. I think it runs contrary to the administration's promise 
of increased transparency. And I hope you will reconsider the 
Department's position on this issue.
    Secretary Kerry. Well, I didn't know there was a position 
that does what you are describing.
    Chairman Royce. Thank you, Mr. Secretary.
    Secretary Kerry. There is certainly no position by me to 
delay anything, and I was not aware that--now, if there is 
anything that is appropriate to turn over--what I want to 
check, Mr. Chairman, is what is the historical precedent with 
respect to investigative document, FBI document, which we don't 
control. I just want to find out what the story is on that.
    I will work with you. And you will have me up here again, 
and if I haven't worked with you, I am sure I will know about 
it. So I promise you, we will work together to try to do that.
    On North Korea, let me just make it clear, I have no desire 
as Secretary of State and the President has no desire to do the 
same horse trade or go down the old road. And I just came from 
Beijing and from discussions there, where I articulated as 
strongly as I can that we are not going to go down the same 
road, that the policy of Russia, the policy of China, the 
policy of South Korea and Japan and the United States, all of 
us, is denuclearization.
    The single country that has the greatest ability to be able 
to impact that is China. And so we had that discussion, and we 
agreed in the very next days now to engage in an ongoing 
process by which we work out exactly how we are going to 
proceed so that it is different. That is our goal, and I can 
assure you I want to reach it.
    The chairman of the Joint Chiefs, Martin Dempsey, will be 
traveling to China in the next days. We will have another--
Deputy Secretary Burns will be going in about 2 weeks. We are 
going to keep the pressure on this in order to try to make this 
outcome different.
    Chairman Royce. In the past, in 2005, as I indicated, we 
did find a way to incentivize those financial institutions that 
were assisting North Korea by giving them access to the hard 
currency. Frankly, what we did was freeze those accounts by 
giving those banks a choice between doing business with the 
United States or business with North Korea.
    At the same time, we could tackle the illicit shipments on 
the high seas, as we have done before, with the Proliferation 
Security Initiative. We could ratchet up the radio broadcasts 
into the country. We could make a strong stand, as I am sure we 
will, on North Korean human rights abuses, letting the regime 
know that they are on notice, that they will be held to 
account. We could take them to the International Criminal 
Court.
    These types of steps, especially in relation to the 
activities we have seen out of North Korea--I think it is time 
we pursue something that is capable of cutting off the access 
to hard currency on the part of the regime.
    But we thank you----
    Secretary Kerry. Those are all options, Mr. Chairman, and 
there are many others. And we are going to explore every single 
option. The one commitment I make to you is, it is very clear 
to me that nothing short of a change is going to get us where 
we need to go. We cannot repeat the same.
    Chairman Royce. Thank you, Mr. Secretary.
    We go to Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman.
    And, again, Mr. Secretary, welcome.
    I had the honor a few weeks ago of accompanying the 
President on his trip to Israel. The Israelis have repeatedly 
said that they are willing to negotiate with the Palestinians 
face-to-face, across a table, with no preconditions. That is 
how the situation in Northern Ireland was taken care of; that 
is what you do when you really want to end a conflict. 
Unfortunately, the Palestinians have refused. This past week, 
Prime Minister Fayyad, one of the most moderate of the 
Palestinians, resigned.
    I am wondering if you can give us your assessment about 
what is going on in the Middle East and what we are doing to 
back the Israelis in their, you know, legitimate quest to say, 
we want to negotiate, no preconditions.
    Also, with Iran, it is clear to me that Iran is buying time 
as their nuclear program advances. The recent P5-Plus-1 talks 
seem to have failed, and talks are delayed now until the 
Iranian elections in June and Ramadan, which starts in early 
August. So when do we say, enough is enough? And what are the 
administration's plans for moving forward?
    And on Syria, the State Department and USAID have worked 
hard to address the humanitarian catastrophe, but I don't 
believe that this civil war can be won with only humanitarian 
assistance and diplomacy.
    Do you believe, Mr. Secretary, that the United States will 
have any type of influence in the post-Assad Syria if we don't 
provide certain elements of a Syrian opposition with the 
weapons necessary to defend themselves and force Assad from 
power?
    So I would like you to answer those questions.
    Secretary Kerry. All six of them in 3 minutes.
    Mr. Engel. We will give you extra time.
    Secretary Kerry. Congressman Engel, I am going to start 
with your last question, and I am going to work backwards.
    On Syria, we are working very, very closely with the Syrian 
opposition, with the Syrian military coalition, and with our 
core partners, as well as with the standard groups, G8, et 
cetera. I was just at a G8 meeting. We met with the Syrian 
opposition at that meeting. And I am flying to Istanbul for a 
Saturday meeting with all of the core group members and more of 
the Syrian opposition, because we are trying to get everybody 
on the same page here.
    The fact is that some people are providing weapons, and 
they have chosen to do that. Others are apparently about to 
decide to, some of our friends. And others have chosen a 
different path of providing different kinds of assistance.
    The point is, the opposition, I believe, is making headway 
on the ground. I believe Assad's days are numbered. I am not 
going to get into the game of months or how long. I am 
convinced that he is going to go; the question is when and how.
    Obviously, there are dangers of extremists who are finding 
some funding and engaged in the battle. And we want to try to 
separate them, if that is possible. We also want to make 
certain that the people we are working with are committed to 
pluralism, diversity, to a democratic process, to all Syrians 
being represented, including the Alawi, the Ismaili, the Druze, 
the Christians, so forth. There have to be a series of 
guarantees.
    So we are trying to proceed carefully to make sure that we 
are not contributing to a worse mess but that we are actually 
finding a constructive path forward.
    The most important thing about Syria I want to leave with 
everybody is this: There is a communique that was issued in 
Geneva last year, which the Russians signed on to and the 
international community signed on to, that calls for a 
transitional government chosen by mutual consent from both 
sides, which obviously does not include Assad because he will 
not be consented to, which then provides for this opportunity 
for a peaceful transition that maintains the institutions of 
the state. That is a critical goal here.
    So we are trying to proceed thoughtfully and carefully. And 
I think this meeting this weekend is going to be a very 
important one in terms of determining what options might be 
available on the road ahead.
    On the Middle East, you can tell from my early travels and 
my engagements that we are committed to trying to find out what 
is possible. I am not going to come here today and lay out to 
you a schedule or define the process, because we are in the 
process of working that out with the critical parties.
    But in my meetings on both sides, I have found a 
seriousness of purpose, a commitment to explore how we actually 
get to a negotiation. And we all have some homework to do. We 
are doing that homework. And I ask you simply give us a little 
bit of time here.
    But I can guarantee you that I am committed to this because 
I believe the window for a two-state solution is shutting. I 
think we have some period of time, in 1-1\1/2\ to 2 years, or 
it is over. And everybody I have talked to in the region and 
all of the supporters globally who care about the peace--and I 
have been struck in my travels, incidentally, by how many 
people everywhere raise this subject and want to us move 
forward on a peace effort--they are all worried about the 
timing here.
    So there is an urgency to this, in my mind. And I intend, 
on behalf of the President's instructions, to honor that 
urgency and see what we can do to move forward.
    With respect to Iran, I would just say to you very simply, 
we are in the closest communication possible with Israel, our 
friends and others concerned about this. We are discussing the 
clock, the time frame, on Iran's enrichment and on the nature 
of the threat. I think we are in sync.
    And the President has made his policy crystal-clear: No 
option is off the table, and Iran will not get a nuclear 
weapon. That is the policy. I reaffirm it today. And we are 
going to continue to leave the door to diplomacy open, but we 
understand there is a clock.
    Mr. Engel. Thank you.
    Chairman Royce. Thank you.
    Chairwoman Emeritus Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so very much, Mr. Chairman, 
Ranking Member.
    And welcome, Mr. Secretary. It is always a pleasure to see 
you.
    Mr. Secretary, days ago, the Venezuelan people faced 
impediments to a free and fair election due to the destructive 
and corrupt policies of Chavista loyalists. The CNE has stated 
that it will not allow a recount in Venezuela in an open and 
transparent manner. The U.S. must not, therefore, recognize 
these election results until a full and transparent recount and 
audit are conducted.
    Will you pledge here today that the United States will 
refuse to recognize the accreditation and swearing-in of 
Nicolas Maduro? I will ask for your answer at the end.
    And does the lack of a coherent response from our State 
Department legitimize the Maduro regime?
    Mr. Secretary, here is a list of the voting irregularities 
cited by the opposition in Venezuela, for your review. And, as 
we know, Venezuela's largest supporter has been the Castro 
regime, as both continue to use oppressive tactics against 
their people.
    Yet, by cutting U.S. democracy funds for Cuba, this 
administration is undermining the opposition and our efforts to 
help true democratic reform on the island. Due to this proposed 
cut, civil society leaders may not be able to advance their 
democratic cause. And as our Nation continues to face economic 
woes, the policy of the United States must be to be to good 
stewards of U.S. taxpayer dollars.
    When I chaired this committee, I placed holds on the 
assistance to the Palestinian Authority. Fayyad's resignation 
casts a greater shadow on the future makeup of the P.A., and it 
opens the door for renewed reconciliation efforts between Fatah 
and Hamas. So if the P.A. is committed to the peace process, 
then why does the administration see the need to use U.S. 
taxpayer dollars to entice the P.A. to go back to the 
negotiation table? We cannot even guarantee that these funds 
will not end up being funneled to Hamas.
    And the administration is also requesting $580 million for 
a Middle East and North Africa fund. What specific benchmarks 
can ensure greater accountability and transparency in these 
funds? And who will oversee the implementation of this money?
    Mr. Secretary, lastly, I have two questions for a written 
reply, to allow the Camp Liberty residents in Iraq to go back 
to Camp Ashraf. The double-layered T walls that were protecting 
the camp were removed, and now the residents are vulnerable to 
armed attacks, as they were on February 9th, when eight 
residents were killed. Will the U.S. ask the Iraqi Government 
to adequately protect the residents in Camp Liberty?
    Another question for a written response highlights Greece's 
importance to the United States and asks for your help in 
urging Turkey to allow the Christian church seminary in Halki 
to reopen.
    So, Mr. Secretary, on Venezuela, will the U.S. recognize 
Maduro as the President in spite of no recount?
    Secretary Kerry. Well, I can't give you a yes-or-no answer 
on that because we think there ought to be a recount. I don't 
know whether it is going to happen in the next days. They are 
talking about having an inauguration on Friday. Obviously, if 
there are huge irregularities, we are going to have serious 
questions about the viability of that government. But that 
evaluation has to be made, and I haven't made it yet. So I can 
assure you----
    Ms. Ros-Lehtinen. Will you be sending someone to the 
swearing-in ceremony, a U.S. delegation?
    Secretary Kerry. If it is under contested circumstances, I 
would be very doubtful of that. There is certainly no plan to. 
But I need to find out--you know, we have to take a look at 
what is going to flow here.
    Originally, Maduro also said there ought to be a recount. 
And then----
    Ms. Ros-Lehtinen. And now the CNE has said no recount.
    Secretary Kerry. Correct. Now the CNE has stepped in and 
said no. I am not sure that is over yet. The OAS has asked for 
a recount, others have. So let's see where we come out on that.
    Ms. Ros-Lehtinen. Thank you.
    Secretary Kerry. Was the Camp Ashraf a written?
    Ms. Ros-Lehtinen. That is for written, but if you would 
care to comment----
    Secretary Kerry. Oh. Well, I will just tell you very 
quickly, I met with Prime Minister Maliki a few days ago. This 
concern about what is happening there at Camp Liberty was very 
much on our minds, in terms of security.
    We are working with them now in terms of trying to 
interview. We have actually run into some problems with that. 
There was an Albanian offer to take some people; that was 
turned down. So we are working through a complicated situation. 
We will give you a full written answer on that.
    With respect to the Mideast--well, let me leave the 
Mideast, North Africa to last.
    On the Palestinian Authority, look, I have to tell you, 
there is no way any of that money is going to Hamas. There is 
no relationship right now between the P.A. and Hamas. In fact, 
there is still a pretty vigorous competition going on, and I 
don't anticipate a reconciliation in the next days or weeks, 
frankly.
    One of the things we need to do, Madam Chairwoman, is 
strengthen the P.A. You know, somebody here has to tell me who 
is going to take the place of either Salam Fayyad--and now that 
is up for grabs--or Abu Mazen. And it seems to me that for 
Israel, for us, for the world, that not strengthening the P.A. 
is to work against our own interests.
    Admiral Bushong, who is there now, is doing an 
extraordinary job following up on what General Dayton started a 
number of years ago to help build the security capacity in the 
West Bank. Last year, the entire year, not one Israeli was 
killed from an incident from the West Bank.
    So we need to recognize, even as there are difficulties, a 
lot is happening. Their economy is actually growing at a 
relatively decent rate. There is a level of cooperation which 
is growing and capacity that is growing. So we want to continue 
that, and I think that to not invest would be remarkably 
shortsighted, particularly given where we are now.
    Prime Minister Netanyahu has agreed in the last days to 
engage in a new initiative in terms of the economy, not as an 
alternative, not as a substitute--I want to emphasize this--to 
the political track, but in addition to, because he believes 
that you need to advance the economic strength.
    Ms. Ros-Lehtinen. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman, for the time.
    Chairman Royce. We will go now to Mr. Brad Sherman.
    Mr. Sherman. Thank you, Mr. Secretary, for your continuing 
service to our Nation. Condolences on what has happened in your 
home State and to several of the State Department employees who 
work under your leadership.
    I just have too many questions, so this may be a relaxing 5 
minutes in that, for the most part, I hope you will respond for 
the record.
    There is probably no more important country than Pakistan 
and nothing more important than our public outreach to the 
Pakistani people. Yet we are broadcasting only in Urdu. This 
committee voted overwhelmingly, unanimously, that we should 
spend $1.5 million broadcasting in the Sindhi language. And I 
hope that the Voice of America will broadcast in the several 
major languages of Pakistan, even though there are elements of 
the Pakistani Government who have a phobia for the use of any 
language other than Urdu. You wouldn't dream of trying to sell 
a product here, at least in my city of Los Angeles, 
broadcasting only in one language.
    We have 37 partners who are visa waiver countries. Some 74 
Members of this House have cosponsored the bill I introduced 
with Congressman Poe. Similar bills have gotten--and we 
introduced that bill last year. Now this year in the Senate, 
both Barbara Boxer and Senator Wyden have bills that have 
significant support.
    Now, not every country can be a visa waiver country, but 
Israel meets the numerical test better than Hungary, Lithuania, 
and Latvia, who were made visa waiver countries a few years 
ago. And there are practical problems; there are practical 
problems in everything. But every country in Europe, and our 
Canadian neighbors to the north, have worked these out and have 
given visa waiver status to Israel. I hope that when Israelis 
want to see Mickey Mouse, they come to Disneyland or Disney 
World and not Euro Disney. Those shekels could be useful here.
    As to Iran, I want to commend the administration for the 
sanctions already imposed, but we have not sanctioned shipping 
companies that continue to service ports operated by the Iran 
Revolutionary Guard Corps. We have not sanctioned the exchanges 
houses, currency dealers, and precious-metal dealers that are 
helping Iran evade sanctions. And I hope that you would 
instruct your staff to focus on those sanctions.
    Likewise, we have issued an exemption to Chinese financial 
institutions doing transactions with the Central Bank of Iran, 
citing a ``reduction in Chinese purchases of Iranian oil.'' I 
hope would you furnish for the record what significant 
reductions there have been in Chinese purchases of Iranian oil 
and also furnish the statistics with regard to India and 
Turkey.
    I want to add my voice to that of Ileana Ros-Lehtinen when 
it comes to the MEK residents of Camp Hurriya and the 
importance of us using our efforts with Iraq to make sure that 
they comply with international law and restore the protective 
barriers that had been there.
    I hope that you would condemn Azerbaijan's threats to shoot 
down civilian airliners that fly into the Nagorno-Karabakh 
Airport and Turkey's blockade of Armenia.
    My last question probably does deserve an oral response, 
but it is a premature and unfair question because matters need 
to be analyzed. And that is, do you see any parallels between 
what happened in Boston and international terrorist incidents 
that have happened in the past, whether those incidents 
actually occurred or whether they were nipped in the bud? I 
realize it is premature, but given your role as heading our 
foreign policy operation, do you see anything that has happened 
abroad that might be parallel to what we have seen in Boston?
    Secretary Kerry. Well, you know, Congressman, I am not 
going to speculate. I have no evidence, and it would be 
inappropriate for me just to cross any line here on that. 
Terror is terror. You know, a bomb going off in a mass of 
people is a bomb going off in a mass of people. And whether it 
is homegrown or foreign, we just don't know yet. And so I am 
not going to contribute to any speculation on that.
    You know, Europe has had its share of, you know, bombs on 
trains--Madrid, London--buses, you know, in Bulgaria. That was 
Hezbollah.
    Mr. Sherman. Uh-huh.
    Secretary Kerry. But it is inappropriate for me to go into 
that territory. If you don't mind, I just----
    Mr. Sherman. I fully understand.
    Secretary Kerry. Let the people do their jobs and the 
forensic work, and we will see where we are.
    Mr. Sherman. Thank you.
    Chairman Royce. We will go now to Chris Smith, Africa and 
Human Rights Subcommittee chair.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Thank you, Mr. Secretary.
    First of all, let me begin by thanking you for raising your 
voice on behalf of Iranian Pastor Saeed Abedini. We all 
appreciate that. I hope it makes a difference, and I hope you 
will continue to do so.
    Four questions, Mr. Secretary.
    Within the last 2 years alone, I have chaired three 
congressional hearings on the systematic abduction of Coptic 
Christian teenage girls, and even of young mothers, who are 
then forced to marry Muslim men, Egyptian men, and are forced 
to renounce their Christian faith. There was a piece in today's 
Inter Press Service news agency that more than 500 Christian 
girls have been abducted in the last 2 years, according to the 
Association of Victims of Abduction and Enforced Disappearance, 
average age 13 to 17.
    I have raised this with our Ambassador, Ambassador 
Patterson. As a matter of fact, 1 year after I gave her--and 
Frank Wolf actually physically put in her hands, the 
information about what is going on, by Skype she talked to our 
committee. I asked her about it. She said she had not gotten 
around to it.
    I ask you, I appeal to you, to raise this issue with 
President Morsi. I doubt that you have because you probably 
have not been briefed. But it is a horrible human trafficking 
issue, and I do hope you will raise it.
    Secondly, Chen Guangcheng has testified at three of my four 
hearings on his case, twice by phone and last week in person, 
right where you sit. Chen, as we all know, is unimaginably 
brave, a human rights defender who exposed the hideous practice 
of forced abortion in China, defended women in a class action 
suit. And for that, he and his wife were tortured with 
unbelievable methods. And now his nephew, Chen Kegui, has 
become his proxy and is himself being tortured.
    He appeals strongly to you, to me, to the President, and 
all of us in Congress, to raise his nephew's case and that of 
the other Chens, but also to ask for information specifically 
about his case, which he has been unable to get from the 
Department.
    You know, the issue of forced abortion and sex-selection 
abortion is so horrific. China is missing tens of millions of 
little girls who have been picked out and killed by sex-
selection abortion. A woman named Mara Hvistendahl has written 
a book, and points out there are over 160 million females 
missing from Asia's population, more than the entire population 
of women and girls in the United States of America. It is 
terrible, it is destabilizing, it is a crime against women. 
Chen paid the price for that; now his nephew is.
    Thirdly, on October 5, 2011, you wrote an excellent letter 
to Secretary Clinton asking that Jacob Ostreicher be assisted 
in Bolivia. I have been down there twice. I visited him in 
Palmasola Prison, and I also visited him again with Nydia 
Velazquez in his hospital room. He is very, very sick. He has 
never been charged with anything. Eighteen months in a terrible 
prison. He is, like I said, sick.
    We have never been able to get intervention above an 
Assistant Secretary level. Will you please see fit to call Evo 
Morales, initiate an effort to rescue this man? Several of the 
prosecutors that were involved with prosecuting him are now 
behind bars because they broke Bolivian law.
    And, finally, child abduction, particularly to Japan--
nobody has come back from Japan; 300 cases, nobody has come 
back. I am running out of time, so real quick. We need to push 
the child abduction cases, especially as it relates to Japan.
    Secretary Kerry. Well, Congressman Smith, let me begin by 
saluting your unbelievably long-term passion for all of these 
human rights issues. You and I have worked together on a couple 
of things, and I really respect your tenacity and your focus. 
And I know that it makes a difference for these people that you 
raise these issues.
    I will tell you directly that, on the Chen Guangcheng, I 
raised not only the issue of his nephew but his family. And I 
raised it while I was in China last week, at the highest level. 
And there is nowhere that I visit that I do not raise the issue 
of our human rights cases.
    With respect to child abduction in Japan, I met not--the 
answer is yes, I raised it, again, at the highest level. I know 
people personally who have had children abducted, and they have 
never gotten a response, they have never come back.
    I might add, I have raised that issue--the last 
conversation I ever had with Mubarak was a half-hour struggle 
with him over the issue of Colin Bower from Massachusetts, who 
has two kids that were kidnapped out of Massachusetts and taken 
to Egypt, and he has had unbelievable difficulty having the law 
enforced and being able to visit them and so forth.
    This is a huge issue. We have families of kids who have 
been abducted, gone to Japan, they can't see them, they don't 
get to them again. We have to resolve this. And, to his credit, 
Prime Minister Abe has submitted to the Diet the Child 
Abduction Convention and has pledged to try to get it passed. 
And I think we will find, perhaps, new cooperation with this 
administration.
    So these are all extraordinary issues. And, most 
importantly, on the abduction of these young women, the 
Coptics, you know, there still is slavery in the world. You 
know that, I know that. And it is a tragedy. There is human 
trafficking that takes place in many more places than people 
think, in many more ways than people think.
    And we are going to raise that. We are raising that within 
the State Department. I raised it as chairman; we held the 
first hearings of the Foreign Relations Committee on it in the 
Senate. And I promise you we will continue to focus on that in 
the days ahead.
    Chairman Royce. We go now to Gregory Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. It is delightful to see 
you, Mr. Secretary. And again, thank you for your dedication to 
our country and all of the work that you have done over the 
years, first in the Senate and now as Secretary of State.
    Mr. Secretary, I applaud the Obama administration's 
ambitious negotiations on the two important trade agreements 
that you talked about, the Transatlantic Trade and Investment 
Partnership with Europe, and the Trans-Pacific Partnership 
Agreement with trading partners in Asia. These negotiations 
hold the promise of boosting the U.S. economy with increased 
access to our largest markets and stronger investments in our 
Nation that will lead to more jobs. The economic potential is 
critical at a time when one in five jobs in our country are 
trade dependent. But trade is always about much more than about 
tariffs and nontariff barriers.
    Europe, we know, is critical to helping the United States 
with challenges that cut across the foreign policy spectrum. 
Iran, Syria to name a couple. And Asia is also key to several 
of our strategic economic security interests, as you 
highlighted in your recent trip. Mr. Secretary, I believe that 
while we deepen our economic ties to the EU and Asia, there is 
also that we can't lose sight of the strategic importance of 
other critical nations like Turkey and Russia. Tackling some of 
our toughest geopolitical challenges will require a closer 
connection, I believe, to these Nations. Yet, and I praise you 
on your recent trip to Turkey, where you have gotten Turkey 
closer to resolving tensions with Israel. That is a move that I 
think is tremendously important, and I commend you on that.
    I am concerned about Russia and Russia's recent reaction to 
the list of names released by the U.S. Treasury under the 
requirements of the Magnitsky law. So my first question is, Mr. 
Secretary, as the administration focuses its foreign affairs 
budgets, how would you collaborate with Russia and Turkey, and 
what role do they play to balance the deepening of ties with 
the EU and Asia, while also, you know, and while working 
together with them, Russia and Turkey on some strategic and 
mutual interests that we have?
    And lastly, Mr. Secretary, you know, I have worked in the 
Western Hemisphere for a long period of time. And I would like 
a view of whether or not and how the administration is looking 
at the Western Hemisphere, and I think in a post-Cold War 
viewpoint. I, like anybody else, believe that all votes should 
be counted. In fact, I wish all votes were counted in 2000. But 
didn't happen here. But at any rate, you know, working with our 
strategic partners, you know, Colombia, Peru, Brazil, Venezuela 
happens to be there, they seem to be working with one another 
in connection with us because we see poverty beginning to be 
lowered there. What is our overall policy, or how is the 
foreign affairs budget, the State Department's budget would be 
prioritized in the entire region as opposed to just focusing on 
one country, since they seem to be trying to work together 
closer than ever before?
    Secretary Kerry. Well, thank you very much, Congressman 
Meeks. I am very, very hopeful. I am planning a trip shortly to 
both Colombia and Brazil, and other countries, hopefully, as 
time permits. We have had some issues, obviously, with 
Argentina in late time over some debt issues and repayment and 
so forth which we need to work through. But look, the Western 
Hemisphere is our backyard. It is critical to us. Too often, 
countries in the Western Hemisphere think that the United 
States doesn't pay enough attention to them. And on occasion it 
has probably been true. I think we need to reach out 
vigorously. We plan to. The President will be traveling to 
Mexico very shortly. And then south, I think he is going. I 
can't remember which other countries, but he is going to the 
region. I will be going. We will have other high-level visits. 
And we intend to do everything possible to try to change the 
attitudes of a number of nations where we have had, obviously, 
sort of a breach in the relationship over the course of the 
last few years.
    The TTIP and the TPP, I will say to everybody here, are 
really critical to the United States, as well as to Europe and 
the Pacific relationship. Japan is very anxious to be involved 
in the TPP. They have taken steps to try to meet the standards. 
Canada, New Zealand, and Australia still need to make a 
decision about them coming in. But the hope is that we could 
get to the July negotiations with Japan and really move forward 
on that. Europe is very excited about the TTIP. And Turkey 
would also like to have a negotiation that is parallel to the 
negotiation with respect to the TTIP.
    So I think what we are seeing here is an enormous opening 
up of opportunity to raise the standards by which people have 
been trading to the highest common denominator, not the lowest, 
and to begin to open up new opportunities for growth in 
countries that are struggling right now to find that growth. So 
I think these are plus-plus, win-wins for everybody, and we are 
going to continue to work toward them. On Turkey, Russia, you 
know, Russia, some people criticize and say, well, what 
happened to the reset? I think they are overlooking. Are there 
counter reactions to some things? Yes, there are. Have we gone 
down into a lower moment of that relationship? The answer is 
yes. And we have these fights over adoption, over Magnitsky, et 
cetera. But on big issues, I want everybody to take notice that 
Russia has cooperated with us with respect to Afghanistan and 
the northern route, which has been critical. Russia has 
cooperated with us on the WTO, cooperated with us on Iran, Iran 
sanctions, on the U.N. resolution, cooperated with us on the 
DPRK, and cooperated with us on the START treaty.
    Those are big ticket items. So even though there have been 
some bumps in the road, I am very hopeful that we can move this 
relationship back to a more visibly completely constructive 
place. And we need to work at it. I had a very good meeting in 
London with Foreign Minister Lavrov to that end. I have been 
invited to go to Russia, which I will do prior to the G8. And I 
look forward to trying to work to do that.
    Turkey has been tremendously cooperative and very positive 
in a number of different ways. Foreign Minister Davutoglu and I 
have a very good working relationship. I met with Prime 
Minister Erdogan a number of times already this year as 
Secretary. They have pledged to be supportive of the Middle 
East peace process. They are being supportive with respect to 
Syria. They are hosting this meeting this Saturday in an effort 
to bring the Syria core group together. And Turkey is talking 
with us right now about helping with respect to both Cyprus and 
Nagorno-Karabakh, two frozen conflicts where we need to break 
out of the past. And I think Turkey is going to be a 
constructive player in those. So I look forward to a productive 
relationship.
    Chairman Royce. We go now to Dana Rohrabacher, chairman of 
the Europe, Eurasia, and Emerging Threats Subcommittee.
    Mr. Rohrabacher. Welcome aboard.
    Secretary Kerry. Thank you, sir. Good to see you. How you 
doing?
    Mr. Rohrabacher. Good to see you. We worked together on a 
number of issues in the past.
    Secretary Kerry. A lot of years.
    Mr. Rohrabacher. I have got three specific things I would 
like to ask you about very quickly, two of them very quickly 
anyway. Number one, you have already been alerted in the 
hearing as to our concerns, and you have already expressed your 
concern about the MEK's vulnerable situation in Camp Liberty. 
We do know that there was an attack on February 8, or last 
February, because it was on the 9th, and eight people were 
killed, and many were wounded. We have asked them to take down 
the structures--not asked them, the structures giving them 
protection have been taken down. Are we going to--the question 
is, are we going to hold the Maliki government responsible for 
their safety? And if there is another attack and more of them 
are murdered, are we going to withdraw any of--will the 
administration withdraw its requests for aid to a regime that 
is murdering innocent refugees in a camp that we helped put 
there? That is number one. Number two--why don't you go ahead 
and answer number one. Are we in any way going to pressure the 
Maliki regime on this issue?
    Secretary Kerry. I raised this issue directly with the 
Prime Minister when I was there a couple of weeks ago. We are 
deeply engaged in this. I am very concerned about the potential 
of another attack. We are trying very hard to find a place to 
resettle everybody. I will tell you----
    Mr. Rohrabacher. I want to say, Senator--Mr. Secretary, I 
have got two more questions that are important.
    Secretary Kerry. Okay. Go ahead. But I will just say to you 
the answer is yes, we are looking for accountability, and we 
are working very hard to provide safety.
    Mr. Rohrabacher. Accountability for the Iraqi Government is 
important on this issue.
    Secretary Kerry. It is Iranian Government that I believe 
was behind the attack. We need the Iraqi Government to help 
provide security.
    Mr. Rohrabacher. Maliki's coziness to the mullahs in Iran 
is disturbing. And this may reflect that. The administration is 
asking for hundreds of millions of dollars in aid, military aid 
for Pakistan. So we are asking for aid, hundreds of millions of 
dollars, if not $1 billion and other aid, to a government that 
is holding in prison the doctor who helped us bring to justice 
Osama bin Laden, a government that gave Osama bin Laden 10 
years of safe haven.
    When, my question to you specifically is, how much longer 
are we going to rely on quiet diplomacy, talking with the 
Pakistanis about trying to free Dr. Afridi, who is an American 
hero? How long are we going to use quiet diplomacy rather than 
just cutting off their aid?
    Secretary Kerry. Well, you know the old saying, Dana, about 
cutting off your nose to spite your face. Cutting off aid to 
Pakistan would not be a good move, certainly at this point in 
time, for a lot of different reasons. We are working with 
Pakistan with respect to nuclear weapon safety and 
nonproliferation. We are working with Pakistan to get our 
supplies both in and out of Afghanistan. Pakistan has lost 
perhaps 50,000 people in the last years to terror. They have 
soldiers----
    Mr. Rohrabacher. Again, Mr. Secretary, Dr. Afridi was given 
safe haven. They are the terrorists' friends, and here we are 
planning to give them millions of dollars, and they have ended 
up giving some of our aid to terrorists who are killing us. And 
the guy who tried to save us is languishing away in a dungeon. 
Shame on us, not you, Mr. Secretary, shame on us if we ignore 
Dr. Afridi languishing away in a dungeon.
    Secretary Kerry. Congressman, we are not ignoring Dr. 
Afridi at all, believe me. This discussion we have, and it goes 
on. But it is just not as simple, it is just not as simple as 
holding everything accountable to one thing where they, they 
assert that there were certain laws that were broken. You know 
the arguments. Now, that complicates it.
    Mr. Rohrabacher. I have got 30 seconds, Mr. Secretary, and 
I got one more issue that is vitally important to bring up.
    Secretary Kerry. Absolutely.
    Mr. Rohrabacher. And that is, I know that you are new to 
this job. We wish you all the success. I do not believe that 
Secretary of State Hillary was honestly cooperative with this 
committee about Benghazi. And you take a look, we have made 
request after request about, for example, just to get the list 
of the names of the people who were evacuated from Benghazi. 
And we haven't even gotten that, much less some of the other 
important questions.
    Now, I know the State Department has flooded us with paper 
for some of the more insignificant things. Mr. Secretary, we 
think that there was a cover-up of some kind of wrongdoing that 
led this administration to lie to the American people about the 
nature of the attack immediately after the attack, and for a 
week after that attack. We need to have these questions 
answered. We need to talk to the people who were on the scene. 
Can you give us a commitment now that for this administration, 
you will be coming up with the request, the honest request of 
this investigative committee as to who was evacuated and how to 
talk to them so we can get a straight answer and an 
understanding of what happened in Benghazi?
    Secretary Kerry. Well, before I became Secretary, 
Congressman, I believe I got the answers to who was evacuated, 
and had a pretty good sense of what happened there. But now 
that I am the Secretary, and I am responsible to you and the 
Congress, I can promise you that if you are not getting 
something that you have evidence of, or you think you ought to 
be getting, we will work with you. And I will appoint somebody 
to work directly with you starting tomorrow with you, Mr. 
Chairman, to have a review of anything you don't think you have 
gotten that you are supposed to get. Let's get this done with, 
folks. Let's figure out what it is that is missing, if it is 
legitimate or isn't. I don't think anybody lied to anybody. And 
let's find out exactly together what happened, because we got a 
lot more important things to move onto and get done.
    Mr. Rohrabacher. Thank you very much, Mr. Secretary.
    Chairman Royce. Mr. Sires of New Jersey.
    Mr. Sires. Thank you, Mr. Chairman. Mr. Secretary, I am 
sorry about what happened in your State.
    Secretary Kerry. Thank you.
    Mr. Sires. I share your hurt. I have three questions. One 
of the questions is can you give me a status and the latest 
efforts we are making to release Alan Gross from Cuba?
    Secretary Kerry. Excuse me?
    Mr. Sires. Alan Gross from Cuba. What are our latest 
efforts to have him released? And where are we with that? The 
other part of that question is we have in New Jersey a million-
dollar bounty on Joanne Chesimard, who has been living in Cuba 
for many, many years. She is the person that shot a State 
Trooper in New Jersey and fled to Cuba. I wonder if you are 
going to raise that issue when there is some sort of 
conversation.
    The second question I have is, you know, I represent a 
great deal of Coptic Christians in my district. And it seems 
that Egypt is making a concerted effort to remove the 16 
million Coptic Christians in Egypt. I mean a couple of weeks 
ago, there were more murders in Egypt. Nothing seems to be 
done. And the final question I have is do you anticipate any 
cuts to the assistance that we are going to give Israel in the 
coming year?
    Secretary Kerry. Do we anticipate any cuts?
    Mr. Sires. Any cuts.
    Secretary Kerry. Well, I will answer the last part first, 
and then I will get to Alan Gross. Israel got a plus-up in the 
budget I think to $3.1 billion total. But that is subject to 
sequester, as is everything. And we are not able to undo that. 
So there will be a plus-up, but then there will be a reduction 
from the plus-up. It is still a net plus up, but there is a 
sequester that will apply to everything, including Jordan, 
Egypt, Israel. Sequester, folks, was not supposed to happen. 
That was the theory. And we are living with it. And so we have 
cuts that we don't want. And that is the absence of making the 
policy choice itself.
    So, yes, there will be cuts under the sequester. Now, on 
Alan Gross, there is a lot of effort that has gone into that. 
Senator Leahy just came back, he was down there, he visited 
with Alan Gross, and has talked to the government about it. 
They were, and have been, attempting to trade Alan Gross for 
the five spies that are in prison here in the United States. 
And we have refused to do that because there is no equivalency. 
Alan Gross is wrongly imprisoned. And we are not going to trade 
as if it is a spy for a spy, which they are trying to allege. 
We are trying to work this out on a humanitarian basis.
    And I am personally engaged, as others are. I have had 
personal meetings before I even became Secretary, trying to get 
Alan Gross out of there. And I hope that somehow we can appeal 
to the regime's--I guess I should rephrase that. We can find 
out whether there is a humanitarian capacity or not, because he 
does not belong in prison. He is sick. He has been there for 3 
years now or more. And he ought to be released on a 
humanitarian basis. We are going to continue to press it.
    Mr. Sires. And Joanne Chesimard?
    Secretary Kerry. I don't have the background on that. I 
need to get that. And I will get back to you.
    Mr. Sires. All right. Joanne Chesimard, just for the 
record, killed a State Trooper in New Jersey. And New Jersey 
has a $1 million bounty. And she has been living in Cuba home 
free for the last 20-some-odd years after killing a State 
Trooper in New Jersey.
    Secretary Kerry. Let me get the file on that and see where 
we are, and I will get back to you.
    Mr. Sires. She fled to Cuba, yes.
    Secretary Kerry. I appreciate it.
    Mr. Sires. Thank you. And the Coptic Christians in Egypt?
    Secretary Kerry. I have met with President Morsi several 
times. I have raised the issue of protection. Generally 
speaking, when we have raised issues, there has been a 
response, but it is not even and it is not across the board. 
And we are very concerned about safety and security going 
forward. Egypt is in, you know, a very, very difficult state 
right now. There is no other way to describe it. And there are 
a number of forces at play, not just within Egypt. But certain 
states in the vicinity are supporting groups that are creating 
problems. You have got the black box, you have got other groups 
that are being funded from outside. And we are trying very, 
very hard to move things toward a place of stability. But it is 
very complicated because the Muslim Brotherhood, obviously, 
raises questions of the readiness and willingness of people to 
work with it in not just Egypt itself, but outside of Egypt. So 
they need to be showing the opposition and the rest of the 
world with greater clarity that they are prepared to protect 
rights, and prepared to provide security, and prepared to be 
inclusive. And we have again and again been talking to them 
about the need for a broader-based governance than is currently 
being provided.
    Mr. Sires. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    Chairman Royce. Mr. Chabot, chairman of the Asia 
Subcommittee.
    Mr. Chabot. Thank you, Mr. Chairman. Mr. Secretary, with 
regards to North Korea, the Obama administration has thus far 
pursued a policy that some have referred to as ``strategic 
patience.'' In other words, we hope that Kim Jong Un is going 
to see the error of his ways and stop the dangerous theatrics 
and return to the negotiating table and move toward 
denuclearization.
    Instead, we find ourselves, I am afraid, in a situation 
where the current dictator has surpassed even his tyrant father 
and grandfather in unpredictability and recklessness. In a 
joint subcommittee hearing last week, I think most of our 
members agreed that the policy of strategic patience, if you 
want to call it that, has been a failure. I would appreciate 
your response, but I will get all the questions out, and then 
you can respond.
    The second question is with reference to Burma. Certainly 
we have witnessed dramatic changes in that Nation over the past 
2 years, but I think we all agree that there may well be some 
bumps in the road ahead. We applaud the reforms instituted thus 
far, and certainly we are happy to see an emerging new 
political process in last spring's elections. However, we are 
also witnessing an escalation of ethnic violence. The military 
remains one of the most powerful actors in the country, and 
instead of working to curtail ethnic violence, it is thought by 
many to actually be the perpetrator. It would appear that 
President Thein Sein cannot keep his regional commanders under 
control in many instances.
    What steps will the administration be taking in its 
discussions with Burmese officials to stress that continued 
progress in civil society and democracy building is preferable 
to a policy that could, in fact, lead to further ethnic strife 
and a potential civil war? Also, as one of the co-founders of 
the Congressional Taiwan Caucus, I would like to talk about 
Taiwan just for a minute. In 2001, there was the announcement 
by President Bush of Washington's willingness to cooperate with 
Taiwan in acquiring eight diesel electric submarines at a cost 
of $12 billion. The official position of Taiwan's Ministry of 
National Defense remains committed to procuring those 
submarines from the U.S.
    However, as the U.S. stopped making diesel submarines many 
years ago, the sale has been stalled. I know we worked with 
France and some of our allies on this. Could you advise what 
the current status of the submarines being acquired by Taiwan 
is?
    Finally, you don't necessarily have to comment on this but 
if you would like to, you can. Former President Chen Shui-bian 
languishes to this day in a jail cell in Taiwan. To me, it 
smacks of the criminalization of politics. To the extent that 
this administration communicates with President Ma, I would 
urge you to encourage President Ma to do the humanitarian 
thing. President Chen's health is failing. I will now yield 
back. Thank you.
    Secretary Kerry. Thank you, Congressman. I appreciate it. I 
will take that and just follow up on it. And let me see what we 
can do about that.
    Mr. Chabot. Thank you.
    Secretary Kerry. On Burma, you are absolutely correct, 
there will be bumps in the road, I hope not big ones. 
Obviously, things are happening today that were unimaginable a 
few years ago as the generals who imprisoned Aung Sun Suu Kyi 
are now standing with her and working toward this democratic 
process. But I am very worried about the minority up in the 
northwestern corner who are still being very badly treated. And 
there are other issues, obviously, of the military. I can't sit 
here and tell you I know with confidence how this is going to 
play out. But we are constantly working to push it toward 
greater democratization, toward the fulfillment of the promises 
that are on the table. That was the purpose of President 
Obama's visit. I think it had an historic impact. And I think 
generally speaking, we are moving in the right direction. On 
North Korea, I would not describe our strategy as strategic 
patience. I would call it strategic impatience. And the 
conversations that I had in the region made it clear that we 
are not going down the same old road. We are not going to 
reward them and come to the table and get into some food deal 
without some pretty, you know, ironclad concept of how we are 
going forward on the denuclearization.
    Now, I am going to be candid with you. You know, we have 
responded absolutely, I think, appropriately to the threats by 
making it clear that since Guam was now potentially threatened, 
or Hawaii was potentially threatened, or even, according to 
their biggest bragging, that the continental United States 
could be reached, the President took the steps necessary that 
any President ought to take to make sure that you are not 
taking anything for granted. And so we have made it clear we 
will defend our allies, and our friends, and our interests. 
Now, that said, I think it is very clear from the last 15 or 20 
years that the United States of America doesn't have direct 
influence with North Korea other than the military threat. And 
that has huge risks and dangers with somebody as untested, as 
provocative, and who has already proven themselves willing to 
be reckless over the course of the last months.
    China does have a relationship. China provides almost 
three-quarters of the fuel to the North. China is a significant 
banking conduit for the North. China provides significant food 
aid to the North. I think it is fair to say that without China, 
North Korea would collapse. Therefore, I think it is important 
for us to work with China. And I think China has indicated its 
willingness to work with us. Now, you know, they also are 
worried about instability. And I can understand that. China 
doesn't want to create greater instability in the Korean 
Peninsula, or create a situation which, from the humanitarian 
point of view, they would inherit most of the problems with it.
    So, hopefully diplomacy can actually work here. And that is 
the key, to work with the Chinese to change the equation that 
has had a bad repetition syndrome of total reneging, of 
complete failure, and of increased nuclearization. We have to 
try to change that.
    Chairman Royce. We go now to Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. And welcome, Mr. 
Secretary.
    Secretary Kerry. Thank you.
    Mr. Connolly. I am sure you remember, I was on the staff of 
the Committee on Foreign Relations when you joined the 
Committee on Foreign Relations in 1985, and worked with you for 
the next 5 years. I was also proud to head up Kerry for 
President in the Commonwealth of Virginia, where we carried for 
Kerry in terms of the Democratic primary vote. And I was also a 
delegate to the Democratic convention on your behalf that year. 
And now you are Secretary of State and I am here.
    Secretary Kerry. This is leading up to a big ask.
    Mr. Connolly. Yeah. Yeah. That ambassadorship to 
Switzerland is coming open. And I want to welcome you and 
congratulate you. And I know you are going to be an historic 
Secretary. I wanted to ask you about two things: I wonder if 
you would comment on USAID. Some of us are very concerned. And 
as you may know, Howard Berman, former chairman of this 
committee, and I introduced a bill trying to streamline and 
make more focused the AID legislation. But in some ways, AID 
has over the years been hollowed out. It was once a place of 
great expertise that lots of development experts went to. It 
has largely become a contracting management agency today. And I 
don't mean that to disparage AID. I think Congress has a lot to 
do with that degradation. But shouldn't we be rebuilding AID to 
be the lead premiere development agency in the United States 
Government? And I know you spent time when you were in the 
Senate, Mr. Secretary, on that subject. So I think we would all 
benefit from hearing your views. And then secondly, 
congratulations to you and to the President in trying to 
engineer a rapprochement between Turkey and Israel. I wonder if 
you might comment on how you think that is going. I think that 
is a very important relationship in terms of our policy in the 
Middle East. And I think it is very important that that 
relationship work, and again, would welcome your views on that 
broad subject. Thank you.
    Secretary Kerry. Thank you. Thank you very much, 
Congressman. And I am grateful for your friendship and support 
through the years. And thank you for being part of the staff 
early on when I first came. And I appreciate that kind of 
friendship. It is important.
    Mr. Connolly. If you would keep Switzerland in mind again, 
please.
    Secretary Kerry. Thank you. Say it again. Excuse me?
    Mr. Connolly. I said thank you for that, but just keep 
Switzerland in mind, please.
    Secretary Kerry. Okay. AID is our lead and premiere 
development agency. It really is. And it does amazing things 
that a lot of people don't see in a lot of parts of the world. 
There is just an extraordinary amount of great work that is 
going on. You always hear about a flagship problem. It is easy 
to find the problem. And there will be problems. Because some 
of what AID has to do is be the development entity in places no 
one else will go, and sometimes invest in a place where the 
economy is not where it would support necessarily a market 
solution, which is why AID has to be there.
    So you have got sort of the Millennium Challenge 
Corporation over here, and you have got AID. AID is the 
preponderance of our expenditure, obviously, but it has adopted 
significant reforms in the last few years that have actually 
moved some of the sort of development challenge kinds of 
enterprise into AID. Wherever we can, we are trying to do 
economic-based aid in a local way that is sustainable and that 
will result in long-term gains, not a project that comes, and 
when the project is over the money is gone and there is nothing 
to show for it. But there are some places where you still have 
humanitarian demands and other kinds of demands that will not 
lend themselves to that. And we just need to understand that. 
We have to understand that is, you know, for the minimalist 
fraction of a percentage of our aid that that may represent, it 
is still an expression of our values and interests. And it is 
important.
    Now, we are--I am not going to sit here and tell this 
committee that the job is done. We are very focused on how we 
take the rest of the Department, AID, and bring it along 
further on this effort to sort of react to a changed world and 
to change requirements. And I think you will see that as we go 
through this next year in many ways in the programs that we are 
developing and supporting. But Raj Shah has done a great job of 
pressing the reform agenda. There are people who don't like it 
in some places. There is always resistance to reform. So we are 
going to push ahead, I can promise you, and I think you will 
like the results as we go forward. One quick thing on the 
rapprochement, Mr. Chairman, if I can just say. There is a very 
important next step that will take place--what are we today, 
the 17th? Next week there will be a meeting between the 
Israelis and the Turks that is the next step of the agreed upon 
roadmap of the rapprochement. And hopefully, that will resolve 
the compensation for victims. And then there will be an 
exchange of Ambassadors, and we move to the fullness of the 
relationship that we are looking for. I am very hopeful that 
that can go forward without any hitch.
    Chairman Royce. We go now to Mr. Joe Wilson of South 
Carolina.
    Mr. Wilson. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for being here. Our sympathy and solidarity for your 
hometown of Boston.
    Secretary Kerry. Thank you very much.
    Mr. Wilson. As we proceed, in 1999, one of the achievements 
of the Clinton administration was a nonproliferation agreement 
with the Russian Federation. As part of that, there was the 
agreement to dispose of high grade plutonium, instead of for 
weapons to be made into fuel. And that resulted in a mixed 
oxide fuel fabrication facility being built at the Savannah 
River site in Aiken, South Carolina.
    Sadly, in the most recent budget, the administration is 
reducing the funding for the construction of the facility. It 
is 60 percent completed. It can indeed be such a great 
testimonial to the relationship that we have with the Russian 
Federation, fulfilling our agreements, but providing for fuel 
of what has been something that from an environmental 
standpoint, from a nonproliferation standpoint, all of it is 
just so positive. What do you see should be done?
    Secretary Kerry. Well, I just was asking, because I was 
unfamiliar with that. And I am just told it is a DOE issue, 
which is why I am not familiar with it. I didn't realize that 
cut had taken place. Obviously, from a macro policy point of 
view, we are very supportive of the nonproliferation 
initiative. I was very concerned about the Russian suspension 
of a component of it recently. I hope that we will get back on 
track, because that has been really one of the most 
constructive things I can think of in terms of nonproliferation 
in the last 50 years.
    Mr. Wilson. It really is. And I appreciate you recognizing 
that. And it is virtually joint DOE and State. So I hope you 
will look into that.
    Secretary Kerry. The funding part is not joint, but the 
policy part of it is. But I am on it.
    Mr. Wilson. Excellent. Additionally, Secretary Clinton was 
very positive in promoting trade. In the State of South 
Carolina, we have had the remarkable situation in the last 2 
years of becoming the leading exporter of cars of any State in 
the United States, BMW; the leading exporter of tires of any 
State in the United States, thanks to Bridgestone, Michelin, 
Continental Tire. We are very grateful for the investments in 
our State with GE, Westinghouse, Boeing. Will you continue the 
policies promoting economic trade between our country and 
developing countries and countries all over the world?
    Secretary Kerry. Hugely. I said in my opening statement 
before the Foreign Relations Committee for my confirmation that 
today, in today's world, foreign policy is to a large degree 
economic policy. And I am deeply committed, I am working right 
now to close out my appointments, the President's appointments 
within the State Department with respect to our economic 
effort. I personally believe this is how we are going to be 
able to do things is leverage assistance. And I wish we had 
more time, I could sort of talk about a modern day Marshall 
Plan, if you will, which is going to involve the private sector 
to a large degree. And that is the way you are going to make a 
difference. What these countries need are jobs for young 
people, masses of young people.
    So we need to try to find ways to, and I think the TTIP, 
the TPP, other kinds of initiatives can help do that. In the 
West Bank, what I was about to describe earlier, was that Prime 
Minister Netanyahu and President Abbas have agreed to this add-
on initiative of trying to bring the private sector to the 
table for rapid economic development to really make a 
difference, as well as for some infrastructure.
    So I think you can join both, leverage development, create 
jobs, brings you stability. That is sort of the new model. And 
I think we have to do a lot of work together to try to develop 
it.
    Mr. Wilson. And another positive example has been the 
nuclear agreement that we have had with India. And I hope we 
can proceed with that. Energy, which would be so important for 
that country to continue its development. I am also very 
grateful to be one of the very few Members of Congress, 
including Ranking Member Elliott Engel, who have been to North 
Korea. I saw a situation where it seems like to me it would be 
in the interests, and you have already touched on this, it 
would be in the interests of China for a more rational 
existence to be there. They can already see the positive 
example of South Korea. Seoul, actually through their 
investments, employs 2 percent of the people of China.
    I can imagine that North Korean investments is nonexistent. 
So I hope that you will persist in pointing out what would be 
positive for China to see change in North Korea. Thank you.
    Secretary Kerry. Congressman, thanks for your thoughtful 
comments.
    Chairman Royce. We go now to Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman. Mr. Secretary, it is a 
pleasure to welcome you to the committee. I also add my 
thoughts and prayers to the City of Boston, as well as the 
family of Anne Smedinghoff, and her colleagues in the Foreign 
Service who continue to mourn her loss. I would also ask you, 
Mr. Secretary, as you begin your tenure, that you continue to 
push for information about my constituent, Robert Levinson, now 
missing from Iran for 2,230 days. I have a few questions to ask 
now. I will submit some other questions for the record for you 
to respond to. I would like to first just point out that last 
July's Burgos, Bulgaria bus bombing was carried out by three 
Hezbollah terrorists. Killed three Israelis and a Bulgarian 
national. Last month, a three-judge panel issued a decision and 
described Hezbollah's activities across Europe. And the 
President, when he was in Israel just recently was very clear 
in saying that every country that values justice should call 
Hezbollah what it truly is, a terrorist organization.
    Mr. Secretary, I hope that you will continue to impress 
upon the Europeans why it is so important that the EU designate 
Hezbollah a terrorist organization. I would like to follow up 
on something you said earlier. You said that you thought the 
window for a two-state solution is shutting, that there is 
perhaps 1\1/2\ or 2 more years or it is over. I would just ask 
if you believe that to be the case, I just hope that you will 
press Prime Minister Abbas, President Abbas on preparing his 
people for peace, on if there is this short window that is 
left, why is it that there is not more focus on negotiations, 
that he continues to impose conditions? That rather than 
focusing on negotiations, much time was lost as he bypassed 
those negotiations to go to the United Nations. Statements that 
could be made to help stop incitement. There is an awful lot 
that can be done, and I hope when I am finished, I hope you 
will speak to that. And then finally, I would like to talk 
about Iran sanctions and follow up on something that my 
colleague, Congressman Sherman, said earlier.
    He talked about significant reductions. And I would 
acknowledge that under section 1245(d) of the Defense 
Authorization Act, a waiver of sanctions can be granted if the 
President makes a determination and reports to Congress that a 
country has significantly reduced its volume of crude oil 
purchases.
    Now, because of the sanctions, Iran's oil exports have 
dropped by 60 percent over the past year. And I commend State 
Department greatly, and this administration, for doing what it 
has had to do to get countries to comply. In December, waivers 
for China and several other cooperating countries were renewed 
for another 180 days. But over the past 3 months, China's 
imports of Iranian crude have steadily increased, as I 
understand it, from 354,000 barrels per day in February to 
415,000 barrels per day in April. And I would ask you, Mr. 
Secretary, what constitutes significant reduction? And 
shouldn't significant reduction be defined differently at this 
point, given where the Iranians are in their nuclear program? 
And with the additional now outside information that Iraq is 
producing 3 million barrels more per day, Libya's production 
has been restored to pre-revolution levels, or about 1.4 
million barrels per day.
    What are we doing to encourage the other countries to do 
more so that oil production--oil importation, rather, is really 
reduced? I am grateful for the State Department's efforts. But 
given where we are and given the timing, it seems that before 
waiving sanctions again there should be much more done and 
expected of the Chinese in terms of real reduction. And if you 
could speak to that, I would be grateful as well.
    Secretary Kerry. You know what I want to do is send you the 
statistics that show you, and I don't have them all here now, 
but I will get them to you, with respect to the China question. 
There is a point where these reductions become very, very--I 
just say this to you, it is not an excuse, but there is a point 
where these reductions become not only very difficult for a 
particular country to go beyond a certain point, but also where 
they have an impact on the global price. So if you want the 
price to go up here, you can have the Chinese vying for more 
somewhere else because they can't get it where they are getting 
it now, and you are going to see some price changes that may 
have everybody screaming as the summer comes and people--so 
things are interconnected. But I will nevertheless show you--I 
am not saying that is a reason for doing it.
    There has been a net reduction, and I will give you those 
stats. Let me come back, the two questions, three you asked 
about, on Levinson, I have actually engaged in some back-
channel diplomacy in an effort to try to see if we can get 
something done there. That has been raised at very high levels. 
And it is not a forgotten issue by any means. We are on it. On 
the Hezbollah, every conversation I had in Europe and 
elsewhere, I urged the labeling as a terrorist organization. 
Because it is. And I emphasized to our European friends 
particularly, the importance of that in terms of giving us 
greater financial tools to be able to restrict the flow of 
financing that allows them to engage in these activities.
    And finally, on the two-state solution, look, the hurdle we 
have to get over here, part of the difficulty is that the level 
of mistrust on both sides is gigantic. President Abbas deep 
down is not convinced, and that may be a light word for it, 
that Prime Minister Netanyahu or Israel are ever going to give 
them a state. And on the other side, Israel is not convinced 
that the Palestinians and others are ever going to give them 
the security that they need.
    So we have to find an equation here, folks, where we can 
try to dispel those years of mistrust and get both sides to 
understand that both things are, in fact, possible. That is as 
far as I am going to go in terms of talking about the challenge 
here. But I think that that is the complication. And we are 
trying to undo years of failure. And I think one can. I believe 
we can. But it has got to go carefully, step by step.
    Chairman Royce. Mr. McCaul, chairman of the Homeland 
Security Committee.
    Mr. McCaul. Thank you, Mr. Chairman. And Mr. Secretary, 
congratulations on your new assignment. I know you will 
continue to serve the country well. And my condolences to the 
people in Boston.
    Secretary Kerry. Thank you very much.
    Mr. McCaul. I plan to visit on Friday. I think the response 
efforts of the Boston Police Department, the fire department, 
and the people of Boston is a true inspiration, and makes me 
proud to be an American.
    Secretary Kerry. Thank you. Thank you very much.
    Mr. McCaul. My question has to do with Benghazi. Earlier 
this year, Secretary Clinton testified. And I asked her about a 
classified State Department cable marked ``secret'' from 
Ambassador Stevens to the State Department on August the 16th. 
And in that cable, he essentially warns the Benghazi consulate 
could not withstand a coordinated attack. And that is a quote. 
The Regional Security Officer believed that our consulate could 
not be protected at an emergency meeting, which is a very 
extraordinary thing, less than a month before the attack on 
September 11. A contingency plan was supposedly drafted to move 
the consulate operations to a CIA annex about a mile away. And 
this cable came on the heels of three significant events: One, 
April 6, 2012, a crude IED was thrown over the wall of the U.S. 
facility in Benghazi; on May 22, the Red Cross building was hit 
by two RPG mortars by the Brigades of the Blind Sheik; on June 
6, the U.S. Consulate in Benghazi was targeted by an IED attack 
that blew a hole in the perimeter wall at the Benghazi 
consulate. Again, the Brigades of the Blind Sheik take credit 
and responsibility for this.
    In written questions after the hearing, I asked the 
Secretary, who in the State Department saw this cable and what 
specific actions were taken in response? I was disappointed, 
quite frankly, with her response. And I hope that you can do 
better. Her response simply identified personnel in the Bureau 
of Diplomatic Security and the Bureau of Near Eastern Affairs 
as having reviewed the cable. But it did not say who received 
the cable specifically and what specific actions were taken in 
response to what I consider to be a cry for help from our 
Ambassador to our State Department in Washington that possibly 
could have prevented that tragic event from occurring.
    Mr. Secretary, can you tell me which individual or 
individuals saw this cable and what specific actions were 
taken?
    Secretary Kerry. I can't tell you which ones reviewed it 
because there is a process going on right now, which is 
supposed to come to me very shortly, which is an internal 
review and analysis of who did what and who may have or may not 
have made the right judgment, or no judgment, or whatever. And 
I have to act on that.
    So I have not seen that yet. And I don't want to--you know, 
I am not going to prejudice anything that I have to do here. I 
think the chairman raised the issue of people still working. 
There is a process. There is a due process, there is an 
administrative internal process. It will come to me. And I will 
have to make some kind of a decision. I am not even sure 
exactly what the parameters of that are yet because I have 
waited until it is ripe and comes to me. But I know that it is 
coming. And I will then know exactly who made what decision or 
didn't, and I will have some responsibility to act one way or 
the other regarding it.
    Mr. McCaul. Well, I appreciate that. But can I have your 
assurance that you will let this committee know which 
individuals actually received that cable----
    Secretary Kerry. Sure.
    Mr. McCaul [continuing]. And what response was taken?
    Secretary Kerry. You have a right to know.
    Mr. McCaul. I certainly appreciate that. One last question. 
This is sort of a mixture of State Department and the 
Department of Homeland Security. But recently, the Global Entry 
program was offered to Saudi Arabia. Saudi Arabia is where 15 
of the 19 hijackers came out of. I can't think of any greater 
threat to aviation security than the Saudi Peninsula with Yemen 
right south of Saudi Arabia.
    For the life of me, I don't understand why Saudi was given 
preferential treatment over our NATO allies who fought 
alongside with our soldiers and fought and died and were 
wounded in Iraq and Afghanistan. And instead of rewarding NATO, 
our NATO allies with this Global Entry, we are rewarding Saudi 
Arabia. I personally--I am not trying to be political here--I 
think it is a dangerous policy. And it could result in American 
lives being killed.
    Secretary Kerry. I am just trying to determine, and I 
apologize, but I am trying to determine who actually makes the 
final decision on that. And I am told it is an interagency 
process, which is, you know, doesn't satisfy me and it won't 
satisfy you. I need to find out where that final decision gets 
made. But, but, and I want to say this in fairness, Saudi 
Arabia has cooperated with us and is cooperating with us in 
extraordinary ways. There are plots that we have uncovered that 
have never come to light, and won't, and shouldn't because of 
Saudi Arabia's assistance. Saudi Arabia is providing invaluable 
assistance in the counterterrorism efforts in the Arabian 
Peninsula. And Saudi Arabia has an extremely effective, and has 
entered into with us, a major capacity to vet, to determine the 
security. And as you know, in the Global Entry program you go 
through a huge background analysis and check. Plus, you have 
major biometrics that are a component of it. I went through 
this a year ago or so so that I could join it. And I remember, 
you know, every fingerprint, every sort of aspect of you is 
proctologized. And so you wind up with a pretty good sense of 
who is who. So I personally have confidence in the capacity of 
Saudi Arabia to do that. And I think I wouldn't prejudice them 
automatically by virtue of what happened. I would look at the 
procedure and check and see what goes into it in fairness.
    Mr. McCaul. I agree. My time has expired, but I will say--
and the Saudis have been extraordinary allies with respect to 
intelligence. I agree with you on that point. But I do think it 
merits review by your Department as well.
    Secretary Kerry. I will check out on the final review. But 
I have great confidence in the Saudi Arabian contribution. The 
Kingdom has been very, very helpful in any number of ways.
    Chairman Royce. Mr. Secretary, going back to your earlier 
comments as you referenced the Benghazi review, can you provide 
us a copy of that internal review once it is completed?
    Secretary Kerry. I don't know. Honestly, I just don't know 
whether there is a privacy internal administrative restriction 
that we all have given through Congress. I don't know what the 
law is.
    Chairman Royce. We will make a request on that.
    Secretary Kerry. I will take a look at that.
    Chairman Royce. We appreciate your follow-up on it. We go 
now to Karen Bass of California.
    Ms. Bass. Thank you, Mr. Chair. And I want to congratulate 
Secretary Kerry on your appointment, and also join my 
colleagues in expressing my condolences.
    Secretary Kerry. Thank you.
    Ms. Bass. I look forward to working with you, and 
especially working with the committed women and men at the 
State Department. I have to tell you that I have really enjoyed 
working directly with the State Department. And I am honored to 
have an excellent Pearson fellow in my office, who I am looking 
forward to continuing to work with. As the ranking member of 
the Africa Subcommittee, I wanted to share with you several 
priority issues that I hope you will consider. First of all, 
U.S.-Africa trade relations. Number two, the importance of 
development assistance programs, including global HIV/AIDS 
funding through PEPFAR. And number three, support for 
peacekeeping operations.
    As you know, the U.N. is considering establishing a 
peacekeeping force in Mali. And there is already a substantial 
peacekeeping mission in the DRC. I know you are aware that six 
of the 10 fastest growing economies in the world are located in 
sub-Saharan Africa. And it is my hope, to the extent possible, 
that the State Department will prioritize trade with African 
Nations. You should know that we have a bipartisan, bicameral 
effort working in conjunction with Chairman Smith to quickly 
put forward a renewal of the Africa Growth and Opportunity Act.
    So I have four questions I would like to ask you. I wanted 
to know, what steps are you taking to focus on Africa's 
extraordinary growth potential? What are your thoughts about 
the U.S. appointing a special envoy to the DRC? Does the 
request for peacekeeping operations accurately reflect the 
growing needs on the continent? And can you comment on the 
significance of the 6-percent cut to USAID HIV/AIDS funding?
    Secretary Kerry. Thank you very much, Congresswoman. Let me 
emphasize, first of all, that we were really pleased that 
PEPFAR was able to be held whole. I think that is vital. I have 
personally visited, I was in Durban, north of Durban, in the 
mountains watching how that program is being effectively 
administered, and the difference it has made. We are looking 
at, as Secretary Clinton said when she testified, we have the 
potential to have an AIDS-free generation as a result of what 
we have done. And we should be very, very proud of that. That 
will continue completely. With respect to the DRC, the answer 
is yes, we are going to appoint a Great Lakes Special Envoy in 
short order. I think you will be very pleased with the 
President's choice. That is also caught up in the vetting 
process right now.
    Ms. Bass. Okay.
    Secretary Kerry. But I am very anxious to do that, because 
I believe that without a great deal of input, one could deal 
with M-23 and encourage Rwanda to perhaps take a different 
approach, help President Kabila to be able to deliver better 
governance. There is a lot that we can do. But we have got to 
be able to be there and be engaged.
    To that end, in answer your question, is the level of 
funding sufficient? I tell you the answer is it is what we can 
ask for under the budget constraints we are living with. But I 
don't think anybody should kid themselves that we are stepping 
up to do what is possible, and what is perhaps morally critical 
with respect to developing an indigenous African capacity to 
respond through the AU or otherwise to some of these crises. 
And as you know, we have a number of U.N. efforts there now 
that are just not yet sufficient to be able to do the job.
    So we have some development work to do in that. And it 
would be such a return on investment. Because a lot of this 
violence is thuggism, it is just criminals that run around and 
are unleashed. And if we had the ability to be able to provide 
some order, I think we could do a lot more for economic 
development and peace.
    Ms. Bass. Absolutely. And Mr. Secretary, before I finish, I 
really think that we need to just change our perspective on how 
we view the continent. With some of the world's fastest growing 
economies on the continent, I would like for you to address the 
significance or the priority that the State Department would 
put on it.
    Secretary Kerry. Six of the 10 or 12 fastest growing 
countries in the world are in Africa. And I want to say to our 
colleagues we all are concerned about our economic future, 
China is investing more in Africa than we are.
    Ms. Bass. Right.
    Secretary Kerry. And we need to--I mean, it doesn't have to 
be, you know, a zero sum game. But we ought to recognize where 
our future economic interests and capacity may lie. And I think 
that is why these investments are so small against the return 
on investment in the long run. And Africa we need to be deeply 
engaged in, and intend to be. The President will travel there. 
And we have a lot do.
    Ms. Bass. Thank you.
    Chairman Royce. We will go to Judge Poe, chairman of the 
Subcommittee on Terrorism, Nonproliferation, and Trade.
    Mr. Poe. Thank you, Mr. Chairman. Thank you, Mr. Secretary, 
for being here. I want to, first of all, thank you for your 
help last year on the Foreign Aid Transparency Act. I think we 
can--if we get this passed this year, it will do a lot to 
explain to the American public why we give foreign assistance 
if it is held accountable by some type of legislation. So thank 
you for your work on that.
    I want to talk about if I have time, four different issues: 
North Korea, Benghazi, the MEK, and also Pakistan.
    I read recently that when you were in China, that you 
suggested the United States would reduce our missile defense 
system in Asia in exchange for Chinese help with North Korea 
even though we were being threatened by nuclear attack by the 
North Korean Government. First of all, is that an accurate 
statement? And if so, explain that, if you would.
    Secretary Kerry. No, not an accurate statement. I think it 
was corrected while I was over there. There was reporting to 
that effect.
    What I--there was no offer, no deal, no contemplation of 
it. What I did say, publicly, and I will say it again, is that 
the President took specific deployment steps of missile defense 
in direct response to North Korea. And it stands to reason that 
if the North Korean threat disappears, there would be a logical 
question of whether or not that same level of deployment is 
necessary. It is all, I stated, was a sort of fact based on the 
rationale of the deployment itself.
    Mr. Poe. Do you think that the United States should give 
aid to North Korea of some type to temper their sabre rattling, 
which they seem to do about this time every year?
    Secretary Kerry. No.
    Mr. Poe. All right. Thank you for those comments. Glad I 
agree with you totally. Just want to clear that up for the 
record.
    As all have said regarding Boston, and Chairman McCaul 
especially, the activity of our first responders was textbook. 
But also the people. How they came out of the stands and down 
the street to help other wounded, and critically wounded 
citizens, and noncitizens as well, people from all over the 
world. I especially am encouraged by the cowboy from Costa Rica 
who is now an American citizen, how he helped with one of the 
runners. And that is why one of the best parts of America is 
its people.
    You had mentioned bringing those perpetrators to justice, 
and they will be brought to justice.
    But buttressing in on Benghazi, it has been 7 months since 
that attack. People are frustrated, Members of Congress are 
even frustrated, 100 want a select committee to study Benghazi. 
Of course, many of them aren't on any committee of 
jurisdiction, but they want a committee. And I hear comments 
all the time, ``Why haven't we captured somebody who did these 
bad things in Benghazi?''
    Reports indicate that the Libyan Government really won't do 
anything because, reportedly, some of the groups, the militia 
groups that support the Libyan Government may be involved in 
the attack. Would you comment on that, if you can?
    Secretary Kerry. I don't have any knowledge whatsoever 
about that. Let me just say that one of the first things I did 
when I came in was call Director Mueller at the FBI to get an 
update on this. Because, obviously, we--you know, there is no 
family in America that wants justice more than the State 
Department family, believe me.
    So I wanted to know where we are, and I think we are making 
progress. Now, there is video, as you all know. We have 
identified people. And they are building a case. You know, we 
are going through the tedious, laborious, and very difficult 
process of gaining evidence from a part of the country which is 
dangerous. And working in a place where the standards are 
different and the expectations are different. We are working 
through that.
    But I can guarantee you this, and I think all of you know 
because of Bob Mueller's service, and the extra years that 
people passed a law to allow him to serve, there is no more 
dedicated or capable leader of the FBI, and there is nobody 
more committed to do this. So I have confidence in that. I also 
have confidence in something else. This President of the United 
States made it clear once before that he would do what was 
necessary to bring somebody to justice. And I guarantee you, he 
has made it clear, yet again, that we will find justice here. 
And the President will do what is necessary. Our hope is to 
work with the Libyan Government and do this through a process.
    Mr. Poe. I will submit further questions for the record, 
Mr. Chairman.
    Chairman Royce. We will go to William Keating of 
Massachusetts.
    Mr. Keating. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary, for being here. I know that both of us, although we 
are here, part of us are still back home in Massachusetts this 
morning.
    But getting to the theme of this morning's hearing, your 
theme of small, smart investments is right on point. I couldn't 
agree with it more. One of those areas that the administration 
and you have been involved with personally and Secretary 
Clinton had been involved with is really dealing with issues 
like the National Action Plan for Women, Peace and Security in 
the world. And I think that we can't approach the broader 
issues of poverty and the rule of law and education and 
healthcare around the world without dealing with these issues. 
They are core to any advancement in that area. And, 
furthermore, I think they are the smartest way to make some of 
these investments for our dollar and to be effective.
    So I would like you to just do two things, if you could, 
comment on. One is generally comment on your ability to deal 
with these gender equality advancement issues with women around 
the world. And, number two, particularly, gender-based 
violence, you know it in your capacity, you knew it when you 
were a prosecutor, as I did. They know no borders or bounds 
when you are dealing with violence based on gender-based 
violence. And internationally the violence that so many women 
experience take many different forms, from rape to early forced 
marriage to harmful traditional, you know, practices that 
occur, such as genital mutilation, honor killings, acid 
violence, sexual violence and contact. And I could go on and on 
and on. But can you comment on the Department's first time ever 
strategy to prevent and respond to gender-based violence 
globally? Those are the two things I would like you to come on, 
Mr. Secretary.
    Secretary Kerry. Thank you, Congressman. Good to see you. 
Thanks for our shared feelings about what has happened up in 
Boston.
    Secretary Clinton did a terrific job of putting this issue 
squarely on everybody's agenda. And I am determined to make 
certain that we live up to that standard, if not exceed it. And 
we are in--I think we are in a good start to do that in terms 
of trafficking issues and other things. But in London last week 
at the G8 Minister's meeting, Foreign Minister Hague of Great 
Britain made the centerpiece of our meeting sexual violence as 
an instrument of war. And we had a, you know, a meeting, we had 
outside representatives come in who helped to raise the profile 
of that. And, in my judgment, you know, was a very valuable 
moment for people to realize that this is going to be held 
accountable as a war crime. And that we are going to keep this 
gender-based violence front and center as we go forward.
    I would also say to everybody when I was in Afghanistan, a 
couple weeks ago, when Ann Smedinghoff was my control officer, 
she helped put together a remarkable meeting of 10 
entrepreneurs, 10 women in Afghanistan who are struggling 
against all of the resistance, culturally and historically, in 
that country to stand up and start businesses and help girls go 
to school, help women be able to be entrepreneurs, a remarkable 
process. And the courage that they exhibited deserves 
everybody's support. It will certainly get ours in the State 
Department, and we are going to continue this in many, many 
different ways over the course of next year. I think you will 
see us continue it.
    Mr. Keating. Thank you. In terms of accountability, Mr. 
Secretary, could that also include some conditions that might 
be tied to aid from time to time to some extent?
    Secretary Kerry. You know, Congressman, there are some 
places that I think lend themselves to that kind of 
conditionality, and there are others that just don't. And I 
don't think there is a blanket, cover-all way of explaining, 
you know, a set of standards that is going to apply everywhere. 
In some countries, the standards actually can be 
counterproductive, and you don't get done what you are trying 
to do. It really depends what is the package, what is the 
nature of the program. And I think you have to be pretty 
customized in that approach.
    Mr. Keating. Thank you.
    And, Mr. Chairman, as I turn it back to you, I do want to 
thank the members of the committee as well as the Members that 
I have been talking to on the floor for their genuine and 
heartfelt concern about what is occurring in Boston. I know we 
are all in this together. And I want to thank the Secretary for 
his remarks.
    Secretary Kerry. Thank you very much, Congressman.
    Chairman Royce. Thank you, Mr. Keating.
    We go now to Matt Salmon, chairman of the Western 
Hemisphere Subcommittee.
    Mr. Salmon. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. First of all, I would like to 
submit several written questions that were put together by 700 
retired Special Forces operators that are in regard to 
Benghazi. And I would just like a written response to that.
    Also, you have urged us to review the video from the attack 
of that night. We have requested that video, but the Department 
has not provided it. When I mean ``we,'' the committee.
    Secretary Kerry. We don't have it. I think it's a--I saw it 
in a classified briefing. I believe it may be the agency or 
something.
    Mr. Salmon. Would it be possible for you to take measures 
to ensure that we do get it?
    Secretary Kerry. I will try to find out where it is and 
what the deal is. I am surprised. I would think----
    Mr. Salmon. We have requested that video, but it has not 
been provided.
    Secretary Kerry. Okay. We had an all-Members briefing, I am 
reminded, in the Senate, and it was shown there.
    In the House. There was an all-Members briefing in the 
House, apparently, which did show it.
    Mr. Salmon. Okay. If we could get that as a committee, it 
would be extremely helpful.
    Secretary Kerry. Mr. Chairman, do you know which committee 
would have hosted that? All Members? Maybe the leadership did.
    But I am confident that--look, every Member who was there 
saw it. And if you haven't seen it, I am confident people will 
make arrangements for you to see it.
    Mr. Salmon. Great.
    I have a few questions regarding the Western Hemisphere and 
some energy issues. As the chairman mentioned, I am the 
chairman of the Western Hemisphere committee. And I am very 
interested in what the next move is going to be from the 
administration regarding the XL Pipeline. I believe that it has 
been documented over and over and over again the jobs that that 
will produce, the benefit to our economy. Your State Department 
has said that there are no significant greenhouse gas issues 
with it or problems with regarding to global warming. And so I 
am kind of wondering why the administration continues to stall 
on that.
    Also, regarding liquid natural gas, we have an 
overabundance of LNG in this country. And a great opportunity 
to export, especially to the Caribbean. With the current 
economic problems in Venezuela, and I think their diminished 
capacity to provide this great commodity, we have a phenomenal 
opportunity, again, to provide jobs in the United States. And 
export--the President said he wants to double our exports over 
the next 5 years. I wholeheartedly endorse that idea. It is 
wonderful. Here is an opportunity to actually put our money 
where our mouth is. And I am wondering what it is going to take 
to get the Department of Energy to get off the dime on issuing 
these permits so that we can get on with exporting that, 
especially to the Caribbean.
    And then, finally, I am a strong supporter of the 
Transcontinental Hydrocarbon Agreement with Mexico. I think it 
provides yet another wonderful opportunity for the United 
States and America to enter in a great economic joint venture, 
as well as make the Western Hemisphere energy independent, 
which I think is a great goal. We have some great 
opportunities, I think, to do economic activities with our 
partners here in the Western Hemisphere. But I think--I think 
it is time for us to move forward with that.
    I have met with some of your personnel, and they have 
submitted language that is acceptable. I would like all hands 
on deck from your Department to help get that done now. Thank 
you.
    Secretary Kerry. Well, thank you very much. Thank you, Mr. 
Chairman.
    Let me begin by saying, first of all, there is no--I assure 
you, there is no stalling going on. The law is being followed. 
We are just following the law. We have a procedure that had do 
in EIS. The EIS was appropriately contracted out. EIS was done. 
Then we have a public reporting period. That public reporting 
period is going on right now. Then after the public reporting 
period, there is an option--it is all under the law, to perhaps 
get more information if there is some reason the public comment 
required it, there is a determination of public interest, then 
ultimately the decision will come to me.
    It is not ripe, it is not there. And I am staying as far as 
away from that as I can now so that when the appropriate time 
comes to me, I am not getting information from anyplace I 
shouldn't be, and I am not getting engaged in the debate at a 
time that I shouldn't be. But we are following the legal 
procedure that is required. I assure you.
    Secondly, regarding LNG and so forth. Look, I spent a lot 
of time on energy and climate and so forth when I was in the 
Senate. And I would love to see the Western Hemisphere be 
energy independent. It is not a dream. It is conceivable that 
it could happen. You and I might have a slightly different 
sense of what the mix of energy ought to be and how you might 
achieve it.
    Mr. Salmon. You would be surprised.
    Secretary Kerry. It is doable, and I think proceed it. I 
think there is a Canada-U.S.-Mexico-Latin America, you know, 
Central American component to this which is really worth 
exploring much more vigorously, and I am prepared to do that.
    Chairman Royce. We go now to Mr. Cicillini of Rhode Island 
for 5 minutes. And afterwards we will go 3 minutes per member.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary, and thank you for your continuing 
service to our Nation. I, too, want to extend my condolences to 
you for the recent loss at the State Department. And I know I 
speak for all Rhode Islanders when I extend our condolences for 
the residents of the City of Boston and of Massachusetts and 
express that you will--they will continue to remain in our 
thoughts and prayers.
    I would also like to add my voice to the priorities that 
were set forth by my colleague, Congresswoman Bass, about the 
continent of Africa and the importance of remaining fully 
engaged in that region of the world. I am very pleased to hear 
your response to that. And with your indulgence, I will submit 
written questions with respect to the status of the 
implementation of the recommendations of the Accountability 
Review Board as they relate to diplomatic security. A question 
regarding the waiver program for Portugal and the Lajes Air 
Force Base in the Azores and mitigating the impact there. A 
question regarding Armenia. Particularly Nagorno-Karabakh. A 
question about our longstanding relationship with Greece. And, 
finally, the State Department's role in protecting LGBT 
individuals and human rights of those individuals all around 
the world.
    But I would like to ask you today, Mr. Secretary, to speak 
to two specific areas: Syria and North Korea. As you know, Mr. 
Secretary, over 1 million refugees have currently left Syria. 
At the Kuwait conference in January, pledges were made of $1.5 
billion in humanitarian assistance, but only a small percentage 
of countries that have made that pledge have fulfilled their 
pledges.
    And so I would like you to speak to what efforts are 
underway to ensure that Kuwait, Saudi Arabia, and the UAE in 
particular are making good on their commitments, and what 
coordination is underway with donor countries to ensure that 
the assistance is reaching the affected individuals? I would 
also like your thoughts on whether or not we are considering 
closing the Syrian Embassy here in the United States and what 
is the rationale of keeping that relationship ongoing.
    And, finally, on the issue of Syria, I would like you to 
speak about what efforts are being made with respect to 
protecting Syrian girls and women in the refugee camps. We have 
seen some recent reports, again, that talk about sexual 
violence and the exchange of money for family members in 
exchange for young women being forced to marry, and so the 
sexual violence of these refugee camps is a particularly 
important issue.
    And, secondly, I would ask you to talk a little bit about 
what your recent trip to Seoul and Tokyo might have contributed 
to your thinking about what is happening on the Korean 
Peninsula, what is your assessment of what is likely to happen, 
what we might be able to do as Members of Congress to help 
bring stability to that region of the world and to protect 
American national security interests on the Korean Peninsula.
    Secretary Kerry. Well, thank you, Congressman. Good to see 
you again, and I appreciate the questions.
    On Syria, let me just say very quickly, we are really in 
touch very directly with these donor countries. As I said, we 
have given $385 million to the refugee issue. They are 
probably--we are nearing the million mark over at--the fourth 
largest city in Jordan today is a tent city. It is a refugee 
camp. And you can imagine the destabilizing impact and the 
problems with the Jordanians, who have other issues and 
challenges economically. So this is a big deal.
    In Lebanon, you don't have camps. In Lebanon, the refugees 
are spread throughout the country. But the estimates are they 
may be as much as 10 to 20 percent add on in terms of 
population. And then in Turkey, you have very significant 
numbers of refugees in addition. You also have displaced 
persons within Syria itself.
    So this is reaching a major humanitarian crisis level. And 
it is one of the reasons why we are going to meet in Istanbul 
this weekend is some of the donor countries will be there. But 
none of us want to sit around and simply see this refugee 
crisis grow and grow and grow and ultimately wind up with an 
implosion of the country itself.
    That may happen. I am not going to sit here and tell you 
that we can prevent that. But the best shot at preventing it is 
to try to get to the negotiating table to get the Geneva 
communique implemented so you can save the institutions of the 
state, not wind up with an enclave state with huge instability 
and problems with extremist groups that have grown stronger as 
a result of this conflict. So time is our enemy. Sooner is 
better in terms of getting to the table and conceivably getting 
some agreement.
    Just very quickly, because I know the gavel has rung. On 
North Korea and the peninsula, I will just repeat again. 
President Park has a new policy called Trust Politic. And she 
wants to reach out to the north. She obviously can't do that in 
the middle of this kind of process. My hope would be that the 
Chinese will come to the table in a way that they never have 
before, that we can work with the Chinese to redefine what is 
in all of our interests, which is a kind of stability in the 
peninsula moving north to a denuclearization, and ultimately, 
hopefully, an integration into the community of nations, based 
on economic reform which China, the United States, others could 
become engaged in. And that could ultimately even open up the 
possibility of President Park's outreach to be able to have an 
impact.
    Absent China coming to table, I believe Kim Jong Un 
laterally calculates that ``I can get away with anything if 
China isn't going to hold me accountable.'' So that is where we 
are.
    Chairman Royce. Mr. Adam Kinzinger of Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And thank you for being here, Mr. Secretary. Since my time 
has been cut down, I want to just make a few brief comments, 
and then a couple of very brief questions for you, sir.
    First off, I want to say I was one of six Republicans to 
support the President in Libya. I supported his decision to go 
in there. I think it was the right thing to do. I believe, as 
you had mentioned in your testimony, in the strength of America 
and that America cannot retreat from the world. Even at times 
when we face tough budgets and everything else. I am glad to 
hear you say that. Where I was dismayed in the Libya situation, 
though, and what I have seen since then is this idea of America 
leading from behind. And it is a strategy that I know was 
mentioned a couple times in passing. But I worry that we are 
now trying as a Nation to be more of a leader from behind. And 
I believe personally that when America retreats from the world 
or retreats from a leadership role in the world, that chaos 
ensues. And so it is an area, and I want you to address that, 
but I want to make a couple of other quick comments.
    You mentioned, I think, in one your--in your Senate 
confirmation hearing that you hear from diplomats, they wonder 
if the United States can continue to deliver. And I appreciate 
that. And I wonder if that is related to the new strategy of 
leading from behind, and not necessarily a financial issue?
    I believe one of the greatest mistakes we have made in the 
last few years was not leaving a leave-behind force in Iraq. 
And I believe that now what we are going to see in Iraq 
actually frightens me. And I know you all are doing great work 
there. And I want to be very clear that the Department of State 
has a strong presence in Iraq, and I appreciate that. But I 
believe not leaving behind American troops was a major mistake. 
And that turns me to Afghanistan. As we are looking at winding 
down Afghanistan, a concern I have is the IMET funding for 
training and education. Ninety-five percent of soldiers are 
reported as illiterate.
    So my question to you specifically, first off, to address 
the leave-from-behind strategy, sir, and how you see it. And 
then, secondly, from Afghanistan, are we in a position with the 
President's timetable for withdrawal, which I believe was 
basically based on an arbitrary date, but are we in a position 
without a strong U.S. military presence after 2014 to leave 
behind an Afghan military that can defend itself against a 
resurgent Taliban or against al-Qaeda. And with that, I will 
give you the remaining minute, Mr. Secretary.
    Secretary Kerry. I really appreciate it. Two very good 
questions. Let me begin. And I am really happy to have this 
opportunity. Let me kill this idea of leading from behind. I 
don't know where it comes from. I don't know what it means.
    Mr. Kinzinger. I don't either.
    Secretary Kerry. Well, how I don't know how you lead from 
behind. If you are leading, you are leading.
    Mr. Kinzinger. Confused me too, sir.
    Secretary Kerry. Let me just finish. I believe that this 
President led on Libya. The fact that you decide not to put 
your boots on the ground doesn't mean you are not leading. 
There are different roles for different people to play. Now, I 
respectfully suggest that almost ever member of this committee 
would have said, ``I don't want boots on the ground in Libya.'' 
I also believe most people would say, ``I don't want boots on 
the ground in Syria.'' But it doesn't mean we are not leading. 
We are leading.
    The President sent me to Rome to bring together the--
together with our Italian friends, a core group. And we upped 
what we were doing. And we led the effort to try to get greater 
support. I went to Turkey, I met with Foreign Minister 
Davutoglu. And the prime minister, and we agreed there, at the 
President's instruction, to see if we could put together an 
additional effort with respect to Syria. That meeting will take 
place this Saturday. That is leadership. I believe the 
President has led from the beginning in helping to put the 
Syrian opposition on the map, to get it recognized, to have the 
Paris meeting, the London meeting, the subsequent meeting in 
Rome and so forth. And to me that is leadership. So put it 
behind.
    I am just going to say one word on Afghanistan. The whole 
purpose of our policy today is to train and equip the Afghan 
army to be able to fend for itself. Most of the reports, 
colleagues who have been traveling there, friends from the 
Senate who have told me they went over recently, were 
encouraged by what they have seen the Afghan army capable of 
doing. You don't see major assaults of the Taliban against the 
army. You see people blowing themselves up. You see cowards 
coming out or people convinced, young children, 16, 17 years 
old, to go blow themselves up. You don't see the leadership 
blowing themselves up, ever.
    So I think that the fact is that what we are seeing are 
sort of a kind of desperation on the part of the Taliban. And 
hopefully, in this fighting season, we will see what the value 
and capacity of the Afghan army is. And in the next fighting 
season. We still have two fighting seasons to see how this army 
develops. And as to the leaving of the troops in Iraq, look, 
the Iraqis would not give our troops immunity.
    Mr. Kinzinger. I don't think we pushed very hard for that, 
Mr. Secretary.
    Chairman Royce. Hold on.
    Mr. Kinzinger. I know my time is up. Thank you.
    Chairman Royce. If the members can be brief with their 
questions--little iconic here--we can get through all of the 
members here.
    Alan Grayson of Florida.
    Mr. Grayson. As briefly as possible, Mr. Secretary, I 
wanted to ask you a few questions about the Visa Waiver 
program. Are you familiar, in general, with the program?
    Secretary Kerry. In general, yes. That is a pretty good way 
to describe it.
    Mr. Grayson. Well, formerly the administration had the 
authority to add countries to the Visa Waiver program, and now 
it does not. Would you like to see that authority on behalf of 
the administration restored?
    Secretary Kerry. Which authority?
    Mr. Grayson. The authority to add countries to the Visa 
Waiver program, which allows qualifying citizens of those 
countries to come to the United States on a short-term basis 
without a visa.
    Secretary Kerry. Sure. I think if people qualify. Look, we 
have a standard, as you know, that people are supposed to meet 
in order to be able to qualify for it. And, sure. Look, you are 
not going to have every country in the world being visa 
waivered, for obvious reasons. But where people can meet the 
standards of requirement with respect to the rate of refusal, 
which is the key standard, we are all for it.
    Mr. Grayson. Would you like to see strong strategic allies 
like Israel and Brazil and Poland rewarded for their 
cooperation with U.S. foreign policy by including them in the 
Visa Waiver program?
    Secretary Kerry. Yes. But I am not in favor of waiving 
standards to do it. I think we have to have people meet the 
standard and proceed from there.
    Mr. Grayson. Up to now, the standard has been what you 
described, which is a 3 percent rejection rate, as determined 
by the Customs and Immigration Service.
    Secretary Kerry. Right.
    Mr. Grayson. Some countries go slightly beyond that in part 
because there isn't a uniform standard applied by Embassies 
throughout the world, some Embassies have a more liberal policy 
with regard to applications than others do. With that in mind, 
instead of outsourcing the decision making to the Customs and 
Immigration Service, would you like to see input with regard to 
diplomatic and security and also economic considerations when 
these determinations are made?
    Secretary Kerry. I would have to review that. Let me just 
tell you that there are--there are several established criteria 
in the act with respect to the current standard for the Visa 
Waiver. One is that government provides reciprocal Visa 
Waivers; two, that the government issues secure machine-
readable passports; three, that the government certifies they 
have a program to incorporate biometric identification into 
their passports; four, that the government reports the thefts 
of blank passports; five, that they maintain the low immigrant 
refusal rate; and, six, that they maintain less than 2 percent 
rejection for travel for nonimmigrant applicants.
    So those are the standards in the current law. And you 
guys, obviously, have the right to change that if you see fit. 
But that is the current standard. And I am not in favor of 
waiving that.
    Mr. Grayson. Well, none of those standards are economic. 
For instance, none of them consider the economic benefit to the 
United States. None of those standards are security-related, 
for instance, concerning the benefit to loyal allies----
    Secretary Kerry. Will you give us a lot more analysts in 
the budget so we can do all of that?
    Mr. Grayson. Would you be in favor of considering those 
favors as well, Mr. Secretary?
    Secretary Kerry. I want to have some evaluation of it to me 
to make a judgment as to whether or not it makes sense.
    Mr. Grayson. Thank you.
    Chairman Royce. Mr. Brooks of Alabama.
    Mr. Brooks. Thank you, Mr. Chairman. Secretary Kerry, 7 
months ago, Americans were murdered at the Benghazi consulate. 
You mentioned earlier in your testimony that the administration 
has testified eight times, given 20 briefings and provided 
25,000 pages of documents about Benghazi. Yet the American 
people still do not know why Ambassador Susan Rice, during a 
heated Presidential race, made so many false statements to the 
American people about what happened in Benghazi. More 
specifically, on September 16, 2012, on ``This Week with George 
Stephanopoulos,'' Ambassador Rice stated, and I quote, ``What 
this began as, it was a spontaneous, not a premeditated 
response to what transpired in Cairo.''
    Yet on the very same day, Libyan President Mohammed 
Magariaf stated on NPR, ``The idea that this criminal and 
cowardly act was a spontaneous protest that just spun out of 
control is completely unfounded and preposterous. We firmly 
believe that this was a precalculated, preplanned attack that 
was carried out specifically to attack the U.S. consulate.''
    Similarly, the State Department's own Accountability Review 
Board concluded that there were no protests prior to the attack 
on the U.S. consulate. Again, on September 16, 2012, on ``Meet 
the Press'' with David Gregory, this time, Ambassador Rice 
stated, ``What happened in Benghazi was, in fact, initially a 
spontaneous reaction to what had just transpired hours before 
in Cairo, almost a copycat of the demonstrations against our 
facility in Cairo, which were prompted, of course, by the 
video.''
    Ambassador Rice made three false statements in one 
sentence. First, Ambassador Rice misrepresented that Benghazi 
was a spontaneous reaction to the Cairo protests; second, 
Ambassador Rice misrepresented that Benghazi was a copycat of 
the Cairo demonstrations; and, third, Ambassador Rice said 
Benghazi was prompted, of course, by an anti-Muslim video, when 
there was little, if any, credible evidence to support this 
claim.
    Secretary Kerry, as we now know, the Libyan President told 
the truth, the United States Ambassador to the United Nations 
did not. My question to you is, can you give assurances to the 
American people that you will conduct an investigation that 
will find out why Ambassador Rice made so many false statements 
to America about what happened in Benghazi and that you will 
share your findings with the American people?
    Secretary Kerry. No. Because I don't think it is necessary. 
Ambassador Rice has apologized for her mistaken comments, which 
were based on talking points that she was given. And she has 
made it clear that she was mistaken. I am absolutely confident 
beyond any reasonable doubt Ambassador Rice did not purposely 
mislead anybody. She was using the talking points. And there 
was confusion in the early hours about the demonstration that 
took place in Cairo, and a release that had taken place from an 
Embassy person in Cairo, which, incidentally, was 
inappropriate.
    A release that was not very well thought out that said 
something about--I can't remember the surprise language, but it 
looked as if we were not standing up for freedom of speech. 
That was subsequently retracted. And in the process, I think 
there was a sufficient level of confusion. I think she would 
tell you she over-relied on those talking points. But I can 
tell you that Susan Rice would never go out and purposely 
mislead you.
    Now, at some point, we have got to find a way to make a 
judgment here about how much information we have and how much 
information is sort of somewhere out there in, you know--that 
might contribute something further here constructively.
    I will work with you, Mr. Chairman. I do not want to spend 
the next year coming up here talking about Benghazi. If there 
is something legitimate that really needs to be put on the 
table, I will put it on the table. And I will work with you in 
good faith. And I believe after we do that with you and the 
ranking member, you will not have questions. And I ask you to, 
you know, put what your members feel they need--but let's put 
this behind us. We have got serious, major, big, current, 
important issues vital to our national security to be debating.
    Chairman Royce. Thank you, Mr. Secretary.
    Secretary Kerry. And I will help you clear the air on this, 
but I want to do it in a fair-minded way.
    Chairman Royce. We have made several requests here today. 
We will follow up.
    Will we go now to Mr. Schneider of Illinois.
    Mr. Schneider. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. Thank you for sharing your time 
with us.
    Let me start, like my colleagues, expressing my condolences 
to the families of those lost in Boston, my wishes for a full 
recovery for those injured, and our solidarity with all of the 
people of Boston. I also want to extend condolences to Ann 
Smedinghoff's family, as well as her family at the State 
Department. I also think it is important to note the countless 
acts of heroism we saw in Boston. That reflected, I believe, 
the truest reflection of the American spirit. And it is also 
the spirit I think we see in the people like Ann Smedinghoff 
and Chris Stevens and all the others who work on behalf of our 
country around the world putting their lives on the line every 
day.
    So let me ask also thank you for your emphasis in this 
budget to making sure that our people around the world in 
harm's way have the security that they deserve.
    Let me now turn my questions, really want to focus on 
Israel and the Palestinians. You talked about the window 
closing on a two-state solution, potentially as soon as in 18 
months, a focus you indicated on both sides for seriousness of 
purpose. And in the context, if we look around the region, with 
Egypt, Syria, and in particular, the threat of nuclear Iran. 
But at the same time, you noted that Abbas was not convinced 
that there was a pathway to peace. And I think what we have 
seen in the last number of months and, unfortunately, on 
Saturday, with the resignation of Salam Fayyad, is the partner 
for peace--I have questions about it.
    And my question for you is, how do we, in light of Salam 
Fayyad's resignation, and the direction that the P.A. seems to 
be taking, how do we help get them to the table for 
negotiations so that the window doesn't close and we can find a 
pathway to peace.
    Secretary Kerry. Well, it is a really excellent question. 
And I am happy to clarify it because I think it is important in 
this whole context to do so.
    First of all, I have enormous respect for Salam Fayyad. I 
have worked with him closely, had many, many meetings with him. 
I think a lot of people had confidence in his stewardship, 
financially, in his financial stewardship, the accountability, 
transparency he brought. But, first of all, he is not going 
away completely. He is going to be there as a caretaker. I 
don't know how long that caretakership will take. But he will 
be there to work in a transition, number one. Number two, he 
will remain involved in Palestinian affairs, I am confident. 
Number three, the peace process and the capacities of the 
Palestinians are, in the end, bigger than one person. They just 
are. And there are people who can continue this journey. And I 
am confident of that. I believe that there is a way for 
President Abbas to be persuaded of the good faith efforts that 
the Israelis are prepared to take, providing they take them. 
And I think there is a way to get to these negotiations.
    So I am not saying to you there is no pathway for peace. I 
am saying to you that he comes to the table with enormous 
mistrust, as do the Israelis, who pulled out of Gaza and 
continue to get rockets on them. And who pulled out of Lebanon 
and--we all know the history here. We all know.
    The art here is not to get trapped in the past and in who 
did what to whom at some point. It is to take the place where 
we are today and be as constructive as possible to move it 
forward. I think that there is a way to avoid the unachievable 
preconditions. I believe there is a way to build a series of 
initiatives that can speak to this mistrust. But you have to do 
it quietly, and you have to do it patiently. But you also have 
to do it rapidly at the same time because of this time frame.
    You know, President Abbas has the power to go to the United 
Nations again, tomorrow. He has the power to ask to be part of 
an agency or recognized now, given the recognition which was a 
vote of 120 something, 140 to 9. I think that it would be 
difficult maybe to find those 9 next time. And people know 
that. You may find 4 or 5, but you won't find the 9.
    So given that, he is restraining from doing that. That is 
his sign of good faith at this moment too. He would like to see 
if we could get this process moving. So everybody needs to kind 
of not react the normal sort of tit for tat, stereotypical way. 
Give peace a chance by providing some opening here for the 
politics and the diplomacy to work. That is what both sides 
need to do. That is what I believe both sides are prepared to 
do. And the proof will be in the pudding.
    Chairman Royce. We go now to Mr. Cotton of Arkansas.
    Mr. Cotton. Mr. Secretary, thank you for your time today. 
Thank you for your service to our country, including your 
service as a young man in uniform in Vietnam.
    Secretary Kerry. Thank you.
    Mr. Cotton. The United Nations recently approved the Arms 
Trade Treaty. Article 5 of that treaty requires nations to 
create a national control system, which includes a national 
control list. Article 10 requires nations to regulate the 
brokering of conventional arms. I am concerned that in the 
unlikely event that treaty is approved by the Senate, it could 
be used to justify such measures as a national gun registry, a 
ban on certain kinds of firearms or ammunition, or licenses to 
purchase firearms or ammunition. Can you assure the committee 
today that the administration does not intend to pursue such 
measures, should the treaty be approved?
    Secretary Kerry. I can absolutely guarantee you that this 
administration is not going to do anything to violate the 
second amendment rights of any citizens of the United States 
nor the Constitution itself. And whatever we agree to will be 
constitutional and appropriate.
    Mr. Cotton. And that includes in the interim period for the 
treaty as ratified, there is a customary international legal 
norm that nations will not attempt to frustrate or block the 
purpose of the treaty. The administration will not do something 
to enact those measures I mentioned earlier through Executive 
Order or regulation.
    Secretary Kerry. The President, I think he has made it 
clear. I think you see that--look, I am out of politics now. 
But I think watching the debate on guns right now, it seems to 
me the President's position is pretty clear. He is not 
proposing--I think, you know, as controversial as some of the 
issues may be, there is nothing there that would suggest a 
fundamental violation of second amendment rights, 
notwithstanding that people can still disagree with one 
position or another.
    Mr. Cotton. Thank you. Like to move now to Syria and arming 
the Syrian rebels. Last May, as a Senator, you said the United 
States should at least consider establishing a safe zone and 
providing lethal military assistance to the rebels if they 
could be more unified and, obviously, identifying them as 
moderate elements. Based on reporting in The New York Times and 
The Wall Street Journal, we now know that Secretary Clinton, 
Secretary Panetta, General Petraeus all supported taking those 
measures. The President and his advisors in the White House 
blocked them. Wondering what your current position is on 
whether the United States should engage in providing that kind 
of assistance. I know you said in Doha most recently that our 
Middle Eastern allies should consider it, and we encourage 
that. But where does the United States currently stand on it?
    Secretary Kerry. Well, the United States policy right now 
is that we are not providing lethal aid. But we are 
coordinating very, very closely with those who are and with our 
core group allies here. And the meeting that we will have in 
Istanbul this week is really to evaluate sort of where the 
situation on the ground is and what accelerants to Assad's 
departure might make the most sense. And we will have that 
meeting.
    And just final comment on the--with respect to--well, I 
will just leave it there. I think that covers it.
    Mr. Cotton. Thank you.
    Chairman Royce. We go to Dr. Ami Bera of California.
    Mr. Bera. Mr. Secretary, I want to thank you for appearing 
here. And, like my colleagues, I want to thank you for your 
service to our country and continuing service. I look forward 
to working with you.
    You know, as my colleagues have already expressed, our 
condolences go out to the families and victims in Boston. You 
know, what it does point out, that we have to remain vigilant 
against those that are jealous of our freedoms and our way of 
life. And we have to remain vigilant against terror, whether 
domestic or foreign. I want to compliment Chairman Chaffetz for 
convening a series of hearings on South Asia, especially in 
light of our drawdown of troops in Afghanistan. And at one of 
those hearings, we had the pleasure of questioning Under 
Secretary Blake and talking about the importance of holding 
onto our gains in Afghanistan and continuing to maintain some 
stability. And the importance of India in this role.
    I know there had been trilateral negotiations between the 
United States, India, and Afghanistan to, again, stabilize the 
region. And a recognition of India's critical role in helping 
maintain those goals and the stability and the economics of 
South Asia.
    I would like to hear from you just an update on how those 
negotiations are going. And your thoughts as we are drawing 
down on how we maintain the gains and the safety and don't let 
terror reemerge in Afghanistan.
    Secretary Kerry. The negotiations on the bilateral security 
agreement?
    Mr. Bera. Correct.
    Secretary Kerry. Well, they are proceeding. I think they 
are going effectively. I had a very good meeting with President 
Karzai a few weeks ago. I think he is well disposed to want to 
finalize that agreement. I think it is in everybody's interest 
to do so. I have confidence that that will happen.
    I think, look, I think, you know, the jury's out on the 
question of where--of exactly how independent this army that we 
have helped to build is going to be. But it is performing 
pretty effectively right now. And the early indications seem to 
be that the morale is high, the enthusiasm and energy is up. I 
think the green-on-blue incidents have gone down. Knock on 
wood. You have to keep working diligently at that. But this is 
the fighting season. This is the time for the test. And we are 
all going to sort of see how it plays out.
    Mr. Bera. I am curious about your perspective on India's 
role in helping develop an economy in Afghanistan.
    Secretary Kerry. India can play a huge role. I have been a 
long-time big believer in India's capacity to be an enormously 
important partner in a number of different things. I think I 
recall taking the first trade mission to India in the 1990s 
when they first began their economic transformation, a far cry 
from where India is today. And I have always believed in, 
because of their democracy, because of their tradition, there 
are great reasons for us to partner with India in many 
significant ways. But India and Pakistan obviously have a very 
different relationship. And so it is a very complicated circle 
between Afghanistan, Pakistan, India. How much India is in 
Afghanistan affects Pakistan's views. And they each have a 
capacity to see bad things happening, depending on what the 
other does. So we have to work at that diligently.
    Mr. Bera. I thank you.
    Chairman Royce. We will go to Mr. Weber of Texas.
    Mr. Weber. Thank you, Mr. Chairman----
    Secretary Kerry. Mr. Chairman, thanks for your largesse 
there. I apologize.
    Mr. Weber. Mr. Kerry, good to see you. Appreciate your 
being here. I have three questions for you. You said to Brad 
Schneider that the art here is to not to get trapped in the 
past, was what you said regarding Benghazi. Toward that end, I 
have two questions. Number one, your predecessor said that 
those four employees in the State Department that didn't, I 
guess, pay attention to the requests for help, firing them was 
not an option, it didn't rise to the level of a fireable 
offense. A, I want to know if you have got a policy going 
forward to define what a fireable offense is. Because if that 
is not, then I don't know what is. B, have you got a policy 
going forward to where they get--people who are getting those 
requests for more security can pay close attention to it at 
some level so that we don't lose more Americans?
    And, finally, my third question is, we have got people that 
are trapped in a camp called Camp Liberty that have had a lot 
of protections removed. You may have addressed this earlier; I 
had to go to another committee. So to keep them from getting 
trapped, can you tell us that you will move forward on getting 
them moved out of that camp to a safer camp? And I will yield 
to you.
    Secretary Kerry. Congressman, thank you for those 
questions. I appreciate it.
    With respect to the issue of Benghazi and paying attention 
to the past and those employees, what is the standard. I have 
learned that apparently there is a--there are a set of rules 
that govern that. And so, as you know, we operate under 
standards by which people have expectations that those 
standards will be adhered to in terms of firing, hiring, 
discipline, and so forth.
    So I am waiting for this report to come to me which will 
give me a full indication of what my options are under the law. 
Following those rules. But let me make it dead clear to 
everybody here, the first conversation I had when I became 
Secretary of State and entered into our first meetings was 
where are we on the Administrative Review Board proposals and 
requirements. I get a, if not weekly, I mean, you know, I mean, 
not a weekly, but more so, if necessary, updating. And I am 
constantly asking, where are we? And we, believe me, up and 
down the chain of command, everybody understands the vigilance 
that is necessary going forward and the accountability that 
will be present going forward.
    So it is a good question. We are clearly under the gun on 
that, and every incident, whatever, is going to be subject to a 
new standard. I know that coming in as Secretary.
    Your third question is about the MEK and being trapped in 
the past with respect to Camp Liberty versus Camp Ashraf. You 
know, Camp Ashraf has been judged to be not safe. Now, Camp 
Liberty has proven also to have its problems with respect to 
security, and I understand that. Which is why I raised the 
issue with Prime Minister Maliki when I was there. And I am not 
saying to you today that I am satisfied yet that it has that. I 
am worried about the security situation there. And, as such, we 
have been trying to raise our level of initiative to move 
people. You know, we have contacted countless countries, we 
have been refused by countless countries.
    We had worked out an arrangement with the Albanians to take 
about 250 people. But then the people in the camp themselves 
declined to go. Subsequently, we have had an interview process, 
because we are trying to interview people to figure out where 
the best fit may be for them to go, and they have suspended 
taking part in the interviews because they want to go back to 
the camp where they were. So we are trapped in a kind of a 
round-robin of different perceptions of what people's interests 
are here, and we are trying to work through that. And I can 
guarantee you it is a high priority.
    Mr. Weber. Thank you.
    Chairman Royce. We will go now to Lois Frankel of Florida.
    Ms. Frankel. Thank you, Secretary Kerry. Thank you for 
being with us today. I have three questions, I will try to be 
quick with them.
    I met recently folks from the U.S. Institute of Peace, and 
they explained to me that they go to dangerous areas of the 
world, such as Libya, with their missions of peace and 
understanding. And that they are able to reach out to folks who 
might be, and audiences that might be more hostile to agencies 
that are closely related to the United States. And I am just 
wondering, number one, whether you work, or the State 
Department works with the institute?
    Secretary Kerry. Whether it works--I couldn't hear you very 
well.
    Ms. Frankel. Whether the State Department works with the 
Institute of Peace at all.
    Secretary Kerry. Oh, absolutely. Work closely with them. 
And I admire their work enormously. They do an amazing amount 
of work on conflict prevention, conflict mediation, conflict 
termination. It is excellent work.
    Ms. Frankel. Thank you for that.
    Secondly, two more questions. Secretary Clinton was here to 
testify about what happened in Benghazi. And one of her 
recommendations was that we allow the State Department, when 
contracting for security in high-threat regions, to use a best-
value contracting rather than the lowest bid. And Mr. Radel 
here filed a bill that many of us, I think, joined on to 
accomplish that. And I am wondering whether you support that.
    Secretary Kerry. Boy, do I ever. I thank you for raising 
that. It is--I just ran into this the other day in one of the 
stops I made in Asia where the Ambassador was telling me they 
have to hire security at the lowest price. Folks, let's get 
serious. Of course, I absolutely support that. We have got to 
have the ability to make value judgments in the provision of 
security to our personnel. Thank you for asking.
    Ms. Frankel. Thank you. I think I will just--I wanted to 
just thank you for continuing the work of Secretary Clinton in 
advancing the status of women around the world. And I know as 
you come back, we will have some more questions on that. And I 
thank you very much.
    Secretary Kerry. Look forward to talking with you about it.
    Ms. Frankel. I yield my time.
    Chairman Royce. We thank the gentlelady.
    We go to Mark Meadows of North Carolina.
    Mr. Meadows. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.
    Secretary Kerry. You are a patient soul, you guys down here 
at the third tier.
    Mr. Meadows. Well, freshman have their privileges. As we go 
to that, I want to shift a little bit to the budget, as we 
start to enter into this. I think your Fiscal Year 2014 looks 
at $1.8 billion in global food aid to be administered by USAID. 
One of the concerns I have, though, is a shifting of the 
resources away from the requirement that food be U.S. grown and 
be more flexible. Do you not see this as having a negative 
implication on American farmers?
    Secretary Kerry. Not ultimately. Honestly, I don't, 
Congressman. And I got to know American farmers pretty well in 
2004, 2003. And I am----
    Mr. Meadows. How does buying food from a foreign source 
help American farmers?
    Secretary Kerry. Because the market right now with respect 
to--this is not what our farmers are depending on right now. 
Our farmers are exporting at a greater level than any time in 
recent memory. That market is only going to pick up. There are 
billions of people to feed. And our capacity within this 
program is not going to make the difference to the farmers. It 
does make a difference to our expenditures to be able to 
provide more people food, faster, when our goal is to deal with 
malnutrition, and we can win by 11 to 14 weeks. That is the 
difference between living and dying.
    Mr. Meadows. Let me move on. One of the other areas that we 
have had a plethora of expert witnesses here talking about 
military versus economic versus political reform in Egypt. And 
it gets highlighted over and over about F-16s getting--being 
given to Egypt or sold to Egypt. We have got 1.3 billion in 
your new request. Would it not be more prudent to look at 
shifting some of those funds to be more balanced on the 
economic and political, or do you feel like it is necessary to 
continue to shift F-16s to Egypt?
    Secretary Kerry. Well, Congressman, I will tell you that--
and this will be counterintuitive to a lot of people coming 
from me--but one of the best investments we made in Egypt over 
the last 30 years is the Egyptian military and our relationship 
with it.
    Mr. Meadows. But we have a government that has changed now.
    Secretary Kerry. Well, we have a government that has not 
yet completely changed it, and I will tell you how and why I am 
saying what I am saying. And it is important for us to focus 
on.
    I believe Egypt, were it not for the restraint shown by the 
military, were it not for the leadership of the SCAF, who knows 
what would have happened. Egypt could have been in unbelievable 
bloodshed and civil war.
    Mr. Meadows. Agreed.
    Secretary Kerry. But the military, largely through the 
ethic that had been created working and training at Fort 
Benning in America and various places, there were officer-to-
officer relationships. We had majors who could talk to each 
other. We had colonels who could call on the phone and say, you 
guys got to be restrained here, you know, here is how you 
handle this.
    And I met many times with Field Marshal Tantawi during the 
time that the military was managing the country. And the fact 
is that they held to what they said they would do. They held an 
election. They created a democracy. Now, you know, the people 
who won surprised a lot of folks, in a sense; didn't surprise 
others, given the base of the country. But they had a 
democracy, they had an election, they turned over their power, 
and they went back to the barracks.
    And they have been, I think, an important ingredient to the 
peace with Israel. Right now the Gaza peace is holding because 
of the mil-to-mil relationship and the intel-to-intel 
relationship. We do not want to lose that.
    And, thirdly, this is not--you know, I would love to make a 
larger economic effort, but, as the chairman knows, we worked 
this with Chairwoman Granger and others to try to have some 
component of economic assistance. But unless there is economic 
reform in Egypt, unless they can meet the IMF standards, unless 
they reach out to the opposition and bring them more into the 
governance, unless they create stability and a capacity to 
invite capital back from other countries with the sense of 
security they have created, unless those things happen, right 
now giving more money would actually be not to good avail.
    Mr. Meadows. Thank you.
    Chairman Royce. We go to Tulsi Gabbard of Hawaii.
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    Thank you, Mr. Secretary, for your presence here today and 
your candid answers and commitment to working with us on issues 
that we all care very much about.
    I want to extend my own appreciation, the appreciation of 
families across my State of Hawaii on your recent focus 
specifically on Asia and the Pacific and recognizing the 
necessity for that focus, especially as we are facing the 
threats that are very real for folks in Hawaii and Guam and 
other places, and appreciate your commitment there.
    Today you talked about doing things differently going 
forward, and I have a two-part question based on how we go 
forward, how do we do things differently.
    From the aid perspective, what other real incentives can we 
provide that go beyond food aid should we get to a position 
where we can negotiate and have conversations with North Korea?
    And on the sanctions front, I think the chairman had 
mentioned earlier in his testimony about the 2005 sanctions on 
hard currency. We have heard from various experts that that 
worked while it was in place but it was perhaps prematurely 
stopped. And I wanted to get your thoughts on maybe why that 
was and what your feeling is on those types of sanctions going 
forward.
    Secretary Kerry. I am sorry, which type of sanction are you 
referring to?
    Ms. Gabbard. On hard currency.
    Secretary Kerry. Well, with North Korea, we actually don't 
have a lot of options, to be honest with you. But as I think I 
have described in the course of the hearing this morning, the 
North Koreans, for the moment, see their nuclear program as the 
centerpiece of the regime's capacity to hold itself together. 
And as long as that is true, we are not going to be able to do 
very much until they shift into a denuclearization posture.
    Now, one of the considerations here that is central to 
anything to do with North Korea is sort of, you know, what 
their perceptions are about their relationship with us and what 
China will or won't do with respect to its relationship with 
them. The North Koreans, it appears, believe that, you know--
they literally believe--I mean, we are told that they believe 
we are prepared to go to war with them, that we are going to 
try to destroy them. I mean, you know, there is a certain 
mythology but there is also a certain hardcore belief to that, 
and that drives their policy.
    We need to obviously shift that into a denuclearization. 
And until we get to denuclearization, we are not going to go 
down the road of providing aid to them of any kind. Because we 
have been through too many divorces. And I think we need to 
find that we are getting a sort of verifiable, clear track to 
the denuclearization, at which point you could, you know, 
venture to do something.
    But I think the biggest thing we ought to try for with 
China is a paradigm shift, where they really decide that they 
are going to try to be like China in terms of their economy and 
shift into a different economic model, at which point all these 
issues about sanctions and hard currency and everything else 
become moot. I don't see much changing until we get that bigger 
shift.
    Chairman Royce. We have gone over the time for the 
Secretary of State. We will go to one last question for Doug 
Collins of Georgia, followed by one last question for Brian 
Higgins from New York.
    Mr. Collins?
    Mr. Collins. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.
    One of the things, I thought it was interesting, I was 
going between committee meetings but watching because I was 
very attentive to what you have to say, especially as it 
regards, when you said you are not into politics anymore, I 
think you are getting back into it today here at the committee 
hearing. But it is good for your answers to hear.
    The question I have, though, is when Secretary Clinton was 
here in January, she strongly endorsed remedying a lapse in 
something that I have looked forward to, of getting back on 
regular order, in which we actually pass the appropriations 
bills as we should. You know it has been over a decade since 
that has actually happened with the State Department.
    However, the fact of the matter is the House did pass an 
authorization last Congress with strong bipartisan support that 
included total funding levels at or above what the Senate 
appropriators had endorsed, as well as a helpful security 
authority, such as this best value for local guards. It has 
been consistent in both places.
    I wanted to just, the question I have for you is, do you 
agree with Secretary Clinton on the importance of having these 
appropriations bills pass? And is that a priority for you?
    Secretary Kerry. Yes. I----
    Mr. Collins. Because undoubtedly it was not in the Senate.
    Secretary Kerry. Well, it was not that it wasn't a 
priority; it is that we just couldn't get it done.
    Mr. Collins. Couldn't get it done. And I think that is what 
we have to get to. We have to get back to regular order and 
function like the people want us to function.
    Secretary Kerry. Can I just comment to all of you? Mr. 
Chairman, Mr. Ranking Member, in your leadership roles, I will 
tell you that we are diminished in our leverage in other parts 
of the world when we go out there today and say, hey, you guys 
have to get your budget together, you know, you have to meet 
the IMF standards, you have to do this or that. And people kind 
of--you can tell from the look that they are sort of asking, 
well, how is your budget deal going?
    So I have argued this before, I gave a speech at UVA in 
which I talked about getting our domestic effort together so 
that we can really speak, as we say in the parlance of the law, 
with clean hands. And we need to do that.
    Chairman Royce. And if I could respond as chairman, Mr. 
Engel and I are working in tandem on an authorization bill. We 
will have that passed over to the Senate. We are talking to our 
Senate counterparts. And it is our goal to have that on the 
President's desk. But any assistance that the Secretary of 
State could give us in this regard would be very welcome.
    Secretary Kerry. Very supportive, Mr. Chairman.
    Chairman Royce. Thank you.
    Secretary Kerry. And I congratulate you on that. That is 
great.
    Chairman Royce. We are going to go to Mr. Higgins for his 
question.
    Mr. Higgins. Thank you, Mr. Secretary, for sticking it out.
    I have been working with the State Department regarding the 
assassination of John Granville, a United States AID diplomat 
from Buffalo who was murdered 5 years ago in the Sudanese 
capital of Khartoum. Islamic extremists were convicted of his 
murder, and last year they escaped from prison. The accomplice 
in the prison who helped them escape was just pardoned by the 
al-Bashir government. The State Department has done tremendous 
work in keeping the pressure on, and I just want to encourage 
that to continue.
    Also, in August 2006, I had traveled to Beirut, Lebanon, 
shortly after the Hezbollah-Israeli war. We came over the 
Mediterranean from Cyprus and landed in military helicopter on 
the Ambassador's residence in Beirut. Ambassador Feltman, at 
the time, was visibly shaken and took us into the residence and 
said that anti-American sentiment was at an all-time high. We 
then moved to the Prime Minister at the time, Prime Minister 
Siniora's residence, and I had asked the Ambassador what his 
concern was. And his concern was that the Lebanese National 
Guard was guarding the Embassy but that the next day 75 U.S. 
Marines would be deployed to the Embassy to guard the interests 
of the U.S. Ambassador's residence.
    As you know, the Vienna Convention on Diplomatic Relations 
forms the basis for diplomatic security that is responsible for 
security personnel. But it is specific to protection of 
classified information, and it is the host community who is 
responsible for the security of diplomatic personnel.
    I am just wondering if you think it is time that the Vienna 
Convention on Diplomatic Relations be changed to put a greater 
emphasis on security being the responsibility not of the host 
nation but of the nation who has representation in that 
country.
    Secretary Kerry. Well, I know what you are getting at. And, 
you know, I think it would be difficult to say that we ought to 
change the fundamental premise, because in most countries or 
in, you know, the vast majority of countries, you can rely on 
people. I mean, you know, we get great help in many parts of 
the world, and we give great help to people who come here. And 
I think that is fundamentally how it ought to work.
    But we ought to have a capacity, obviously--and this is 
what we are doing now. As a result of Benghazi, we have made 
evaluations--this was part of the ARB--and we now have 
judgments about high-risk, high-threat locations, and we are 
beefing up our Marine detachments in those places. So we have 
asked the Congress for the money and for the additional 1,000 
Marines, and that is part of the request. And we are waiting, 
you know, for the deployment, et cetera, to get that done.
    But the bottom line is I think we shouldn't chuck the 
Vienna Convention. I think we ought to maybe tweak it 
appropriately, create some judgments there that allow adequate 
domestic security where you have a serious enough threat that 
you can't count on the local community.
    Chairman Royce. Well, we want to take this opportunity to 
thank the Secretary for his testimony here today. We face some 
daunting challenges abroad, but we look forward to following up 
on the items that we discussed.
    And we stand adjourned.
    Thank you again, Mr. Secretary.
    Secretary Kerry. Thank you, Mr. Chairman. Appreciate it. 
Thank you, sir.
    [Whereupon, at 12:46 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 Material submitted for the record by the Honorable Edward R. Royce, a 
Representative in Congress from the State of California, and chairman, 
                      Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                          Faleomavaega statement 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
